<html>
<title></title>
<body><pre>[House Hearing, 116 Congress]
[From the U.S. Government Publishing Office]


                         [H.A.S.C. No. 116-61]

                    THE DEPARTMENT OF DEFENSE'S ROLE

                  IN LONG-TERM MAJOR STATE COMPETITION

                               __________

                      COMMITTEE ON ARMED SERVICES

                        HOUSE OF REPRESENTATIVES

                     ONE HUNDRED SIXTEENTH CONGRESS

                             SECOND SESSION

                               __________

                              HEARING HELD

                           FEBRUARY 11, 2020


                                     
[GRAPHIC IS NOT AVAILABLE IN TIFF FORMAT]

                                     
                              __________
                               

                    U.S. GOVERNMENT PUBLISHING OFFICE                    
40-874                     WASHINGTON : 2020                     
          
--------------------------------------------------------------------------------------                     
                    
                     
                     COMMITTEE ON ARMED SERVICES
                     One Hundred Sixteenth Congress

                    ADAM SMITH, Washington, Chairman

SUSAN A. DAVIS, California           WILLIAM M. ``MAC'' THORNBERRY, 
JAMES R. LANGEVIN, Rhode Island          Texas
RICK LARSEN, Washington              JOE WILSON, South Carolina
JIM COOPER, Tennessee                ROB BISHOP, Utah
JOE COURTNEY, Connecticut            MICHAEL R. TURNER, Ohio
JOHN GARAMENDI, California           MIKE ROGERS, Alabama
JACKIE SPEIER, California            K. MICHAEL CONAWAY, Texas
TULSI GABBARD, Hawaii                DOUG LAMBORN, Colorado
DONALD NORCROSS, New Jersey          ROBERT J. WITTMAN, Virginia
RUBEN GALLEGO, Arizona               VICKY HARTZLER, Missouri
SETH MOULTON, Massachusetts          AUSTIN SCOTT, Georgia
SALUD O. CARBAJAL, California        MO BROOKS, Alabama
ANTHONY G. BROWN, Maryland, Vice     PAUL COOK, California
    Chair                            BRADLEY BYRNE, Alabama
RO KHANNA, California                SAM GRAVES, Missouri
WILLIAM R. KEATING, Massachusetts    ELISE M. STEFANIK, New York
FILEMON VELA, Texas                  SCOTT DesJARLAIS, Tennessee
ANDY KIM, New Jersey                 RALPH LEE ABRAHAM, Louisiana
KENDRA S. HORN, Oklahoma             TRENT KELLY, Mississippi
GILBERT RAY CISNEROS, Jr.,           MIKE GALLAGHER, Wisconsin
    California                       MATT GAETZ, Florida
CHRISSY HOULAHAN, Pennsylvania       DON BACON, Nebraska
JASON CROW, Colorado                 JIM BANKS, Indiana
XOCHITL TORRES SMALL, New Mexico     LIZ CHENEY, Wyoming
ELISSA SLOTKIN, Michigan             PAUL MITCHELL, Michigan
MIKIE SHERRILL, New Jersey           JACK BERGMAN, Michigan
VERONICA ESCOBAR, Texas              MICHAEL WALTZ, Florida
DEBRA A. HAALAND, New Mexico
JARED F. GOLDEN, Maine
LORI TRAHAN, Massachusetts
ELAINE G. LURIA, Virginia
ANTHONY BRINDISI, New York

                     Paul Arcangeli, Staff Director
                       Barron YoungSmith, Counsel
                  Kim Lehn, Professional Staff Member
                          Emma Morrison, Clerk
                           
                           
                           C O N T E N T S

                              ----------                              
                                                                   Page

              STATEMENTS PRESENTED BY MEMBERS OF CONGRESS

Smith, Hon. Adam, a Representative from Washington, Chairman, 
  Committee on Armed Services....................................     1
Wilson, Hon. Joe, a Representative from South Carolina, Committee 
  on Armed Services..............................................     3

                               WITNESSES

Denmark, Abraham M., Director, Asia Program, Woodrow Wilson 
  International Center for Scholars..............................     6
Mahnken, Thomas G., President and Chief Executive Officer, Center 
  for Strategic and Budgetary Assessments........................     7
Polyakova, Alina, President and Chief Executive Officer, Center 
  for European Policy Analysis...................................     3

                                APPENDIX

Prepared Statements:

    Denmark, Abraham M...........................................    66
    Mahnken, Thomas G............................................    87
    Polyakova, Alina.............................................    49

Documents Submitted for the Record:

    [There were no Documents submitted.]

Witness Responses to Questions Asked During the Hearing:

    Mr. Wittman..................................................   103

Questions Submitted by Members Post Hearing:

    Mr. Brindisi.................................................   107
    Mr. Kim......................................................   107
                  
                  
                  
                  THE DEPARTMENT OF DEFENSE'S ROLE IN
                   LONG-TERM MAJOR STATE COMPETITION

                              ----------                              

                          House of Representatives,
                               Committee on Armed Services,
                        Washington, DC, Tuesday, February 11, 2020.
    The committee met, pursuant to call, at 10:00 a.m., in room 
2118, Rayburn House Office Building, Hon. Adam Smith (chairman 
of the committee) presiding.

  OPENING STATEMENT OF HON. ADAM SMITH, A REPRESENTATIVE FROM 
       WASHINGTON, CHAIRMAN, COMMITTEE ON ARMED SERVICES

    The Chairman. We will call the meeting to order. Good 
morning, everyone. This morning we are meeting to have a 
hearing and discussion on great power competition, is the way 
it has been phrased; the way we chose to put it in our hearing 
book, is ``The Department of Defense's Role in Long-Term Major 
State Competition,'' which is a complicated way of saying great 
power competition.
    We have three excellent witnesses this morning: Dr. Alina 
Polyakova, who is the President and CEO [chief executive 
officer] on the Center for European Policy Analysis; Abraham 
Denmark, Director of the Asia Program at the Woodrow Wilson 
International Center for Scholars; and Dr. Thomas Mahnken, 
President and Chief Executive Officer at the Center for 
Strategic and Budgetary Assessments.
    This is something that has been talked about for a long 
time, is this so-called shift to great power competition. 
Supposedly from our focus on counterterrorism, transnational 
terrorist threats in primarily the Middle East and Africa to 
worrying more about what Russia and China are up to. What I 
hope we can accomplish this morning is to get a better idea of 
what that means in terms of policy.
    Now, it is easy to say but what do you do? What exactly is 
it that Russia and China are doing that is contrary to our 
interests, and what interests are we trying to pursue? And I 
don't feel to this point that that has been adequately 
explained. We have heard a lot of talk recently about how we 
need to draw down in Africa. And a big part of the conversation 
there is the notion that we have a finite amount of resources 
within DOD [Department of Defense]. And if, in fact, Russia and 
China are becoming more important, then we have to find 
someplace else where we can do less, which I agree with and 
makes sense. But a lot of the great power competition is going 
on in Africa. Russia and China are very active in that part of 
the world. So what do we do there to sort of counter their 
activities?
    But laying over the top of all of it is to have a better 
understanding of what is it that Russia and China are doing 
that we wish to oppose? What basically is in our interest in 
this case? Put most directly, Russia and China are now 
aggressively pushing an alternative view of the world, and of 
governance. And that alternative view is based on autocracy, 
the idea that democracy doesn't work, freedom doesn't work, you 
need to have a strong man.
    And, yes, it is always a man in their vision to control 
things, that their government works better. And I think that is 
a very core threat to freedom and democracy, which are 
important to our interests and to global stability. Beyond 
that, their economic model, I think, can best be described as 
kleptocracy, basically the folks at the top control all the 
money, and should not be subject to rules. And basically they 
can do whatever they want, whenever they want, and that any 
sort of international norms are simply inconvenient. I think we 
need to do a better job of explaining how that is contrary to 
our interests and contrary to the interests of the world.
    Lastly, I am concerned that from the Armed Services 
Committee perspective, we tend to have a myopic view of great 
power competition, and that is, well, whatever they have 
militarily, we have to have more in order to beat them. I 
believe that competing with Russia and China is about a lot 
more than military might. There are a lot better, I believe, 
more cost-effective ways to deter their interests than by 
simply trying to engage in an arms race that we hope to win. 
Alliances are crucial in containing these countries. Alliances 
certainly in Asia will help us deal with China, but alliances 
in Africa, and Latin America, and elsewhere, will also help us.
    Then diplomacy and development are crucially important. A 
big part of what China is doing is spreading money around. Now, 
they are spreading it around in a very selfish way that is 
beginning to create problems for them, but those development 
dollars are crucial to building the relationships necessary to 
win this ideological battle that we are engaged in. And I think 
we need to focus on that.
    You can't put out a budget that cuts the State Department 
and cuts USAID [United States Agency for International 
Development] by 30 percent, and then say that you care about 
great power competition, because you don't at that point. You 
are ceding the field to our opponents. And the last little 
piece of that point is, I know there are some who look at what 
Russia and China are doing, they are concerned militarily if we 
go head to head with them in a war, we are no longer guaranteed 
to win.
    Well, just for a simple math problem, if our mission is we 
have to be able to simultaneously defeat Russia and China in a 
war, as most of the war games are fought on their territory, 
while at the same time dealing with North Korea, Iran, and 
transnational terrorism, well, there is it not enough money in 
the entire world to build a military that could do all of that.
    So, we better come up with a strategy that doesn't require 
us to do all of that in order to meet our interests, or we are 
simply spinning our wheels. So I hope we can focus that. This 
is the first, actually, in a series of hearings that I am going 
to try--not try to do, I am going to do, on what is our 
strategy? How do we review our strategy? The three big broad 
categories there are: great power competition; rogue states, 
primarily Iran and North Korea; and containing transnational 
terrorism. There are other pieces, but how does that fit 
together into a coherent strategy?
    I look forward to hearing from our witnesses and also the 
Q&A [question and answer] back and forth with our members as we 
grow in our understanding of how to approach this crucially 
important issue.
    And with that, I will yield to Mr. Wilson for any opening 
statement he has.

   STATEMENT OF HON. JOE WILSON, A REPRESENTATIVE FROM SOUTH 
             CAROLINA, COMMITTEE ON ARMED SERVICES

    Mr. Wilson. Thank you, Chairman Adam Smith. And Dr. 
Polyakova, Mr. Denmark, Dr. Mahnken, on behalf of Ranking 
Member Mac Thornberry and myself and colleagues, thank you for 
being with us today to discuss the Department of Defense's role 
in the long-term major state competition. We know that the 
Department of Defense has an enduring mission to provide 
capable, credible military forces needed to deter war and 
protect the security of our Nation, peace through strength. 
Furthermore, we understand that the Department of Defense 
supplements a number of national capabilities to deter 
antagonistic behavior from our adversaries and strategic 
competitors.
    I am grateful that President Donald Trump's budget 
submitted yesterday reinforces our efforts to support our 
troops and military families. As we transition to a great power 
competition in line with the National Defense Strategy, this 
hearing topic is of crucial importance, and we appreciate the 
leadership of Chairman Smith to have this as a beginning of 
several hearings. We look forward to your testimony today.
    I yield back to the chairman.
    The Chairman. Thank you, Mr. Wilson.
    With that, I will yield to Dr.--well, with one comment, 
You're not limited to 5 minutes. We put the clock on just 
because we can't have you going 20, for instance. So I don't 
want to cut you off, but we have a lot of people here, a lot to 
get through. So if you can be as concise as possible that would 
be much appreciated.
    Dr. Polyakova.

  STATEMENT OF ALINA POLYAKOVA, PRESIDENT AND CHIEF EXECUTIVE 
          OFFICER, CENTER FOR EUROPEAN POLICY ANALYSIS

    Dr. Polyakova. Chairman Smith, Ranking Member Thornberry, 
Congressman Wilson, and distinguished members of the committee, 
it is an honor and privilege to address you today on this 
critical issue for United States national security. Thank you 
for inviting me to speak and address you.
    Great power competition has already shaped our world. Now 
its outcome will determine our future. As the 2017 National 
Defense and National Security Strategies correctly assess, 
Russia and China are actively undermining U.S. power, 
influence, and interests.
    Since 2017, these activities have become even more 
pervasive. Most notably, Russian-Chinese military, economic, 
and political cooperation has grown, intensifying challenges to 
the United States. Both countries have increased investment in 
and development of new technologies, particularly artificial 
intelligence, with potentially dramatic effects on our national 
security and the nature of geostrategic competition.
    Both countries are also engaged in developing [and] 
exporting their own models of digital authoritarianism, 
challenging U.S. national security interests in various parts 
of the world. As new digital technologies advance at an 
increasingly rapid pace, and our adversaries subvert and 
weaponize these technologies, the gap between the threats they 
present and our ability to respond will only widen. The outcome 
of the new era of geopolitical competition will be determined 
in the digital domain.
    Today, I will focus on the medium- and long-term threats 
emanating from Russia specifically. Russia presents a unique 
challenge to the United States. It is simultaneously a country 
in decline and a global power with proven ability and 
determination to undermine U.S. interests in multiple military 
and nonmilitary arenas. Our resolve to respond must be 
commensurate to Russia's ambition and deliberate intent to chip 
away U.S. leadership in the world and undermine the security of 
the United States and our core allies. Doing so means that the 
United States Government should continue to invest not only in 
conventional, but also nonconventional deterrence capabilities.
    I will briefly summarize the challenge Russia poses and how 
the U.S. should respond, which I elaborate in my written 
testimony. First, we must have a sober assessment of how 
Russia's domestic forces shape its foreign policy. Moscow faces 
serious security challenges, and financial and political 
constraints at home. Russia faces a stagnant economic forecast, 
but due to low debt and high reserves, its economy has proven 
to be quite resilient to U.S. and European sanctions, and 
fluctuations in the oil and gas markets.
    Politically, recently proposed constitutional changes from 
the Kremlin will likely, de facto, keep Putin in power for 
life, while the Kremlin will continue to repress dissent at 
home. In terms of Russia's military posture, the Russian 
military modernization plan has led to significant improvements 
in Russia's ability to carry out targeted attacks in air 
campaigns. Some estimates suggest that Russia's actual military 
spending is closer to $200 billion annually, versus the $60 
billion we usually see cited in official Russian documents.
    On the whole, however, Russia cannot out-compete the United 
States and our allies militarily, economically, or politically 
in terms of its lack of alliances to support its political 
agenda. But its ambition for great power status and Putin's 
tolerance for risk means that Moscow will continue to invest, 
seek out, and develop tools of asymmetric warfare as a low-
cost, high-impact avenue for contesting U.S. interests across 
the world.
    In addition, we should not expect a change of course from 
Putin, who will continue to drive Russian foreign policy, and, 
of course, that will contest U.S. interest and seek to fill 
power vacuums across the world. To that end, Russia has 
intensified its global activities beyond its immediate 
neighborhood, since Russia's illegal annexation of Crimea and 
invasion of Ukraine in 2014. In the Black Sea region 
specifically, Russia has de facto turned Ukraine's Crimea into 
a military base stationing at least five known S-400 air 
defense systems there, adding troops and other weapons to 
fortify its position. This buildup has intensified over the 
last 2 years allowing Russia to establish security dominance 
over the Black Sea.
    The culmination of these activities has produced a new iron 
curtain across the entire Black Sea region. But Russia seeks to 
contest U.S. interests not just in Ukraine and the Black Sea, 
but also in Syria, where its 2015 intervention have decisively 
shifted the trajectory of the conflict in Bashar al-Assad's 
favor. And in parts of Africa and South America, Russian proxy 
military forces such as the Wagner Group are increasing 
operations and exporting the Syria model of protection and 
support to authoritarian leaders in exchange for access to 
strategic assets and military bases.
    The lesson we should take from Syria, where Russia has now 
established itself as the key power broker for the region, is 
that where the U.S. disengages, Moscow steps in to fill the 
void. In Africa, the Kremlin is positioning itself to do the 
same. Thanks to the Congress and the work of this committee 
especially, since 2017, the U.S. has invested in both military 
and nonmilitary deterrence and containment measures, with a 
renewed commitment to the European Deterrence Initiative, EDI, 
support for counter disinformation efforts via the U.S. State 
Department and the Global Engagement Center, and a new and 
assertive cyber strategy. The 2020 NDAA [National Defense 
Authorization Act], in particular, took important steps to 
counter Russian malign activities in the non-kinetic domain. 
But there are places where we still need to do more.
    The U.S. should support Europe's efforts to do more for its 
own defense, and particularly the EDF [European Defence Fund] 
fund and PESCO [Permanent Structured Cooperation], and to 
ensure that these efforts are complementary and not duplicative 
of NATO [North Atlantic Treaty Organization] efforts in the 
European space. The U.S. should continue to strengthen its 
efforts to counter Russian political warfare of which 
information operations are only part of the toolbox. It also 
includes cyber operations, influence through organized crime, 
bribery, subversion, and PSYOPS, or psychological operations.
    The Russian toolkit has already gone global. The U.S. must 
also develop a comprehensive strategy for countering what I 
call digital authoritarianism. Russia, like China, is actively 
exploiting surveillance technologies across the world while 
tightening controls at home. The digital space, including the 
information ecosystem, is the new battleground in the coming 
decades.
    The Russian region of warfare is multi-spectrum and multi-
vector. Moscow has proven itself adept at using nonconventional 
means to challenge U.S. interests. And our response must be 
commensurate with the challenge we face if we are to win in the 
era of geostrategic contestation.
    Thank you.
    [The prepared statement of Dr. Polyakova can be found in 
the Appendix on page 49.]
    The Chairman. Mr. Denmark.

   STATEMENT OF ABRAHAM M. DENMARK, DIRECTOR, ASIA PROGRAM, 
        WOODROW WILSON INTERNATIONAL CENTER FOR SCHOLARS

    Mr. Denmark. Chairman Smith, Ranking Member Thornberry, 
Congressman Wilson, distinguished members of the committee, it 
is an honor to testify before you today. As I begin, I want to 
make clear that these are my opinions alone, and not those of 
the Wilson Center, U.S. Government, or any other organizations.
    I would like to make four main points on U.S.-China 
military competition. Given the short amount of time I have, I 
will discuss each briefly.
    First: United States and China are engaged in a long-term 
competition over the relative distribution of geopolitical 
power in the Indo-Pacific, and over the future of the liberal 
order that for decades has been critical to the region's 
stability and prosperity. This competition involves all aspects 
of national power, including military, technology, politics, 
economics, and ideology.
    In a multifaceted competition with China, the United States 
cannot afford to ignore any dimension of national power. This 
competition is primarily over two interrelated, foundational 
elements of American strategy toward the Indo-Pacific. First, a 
central theme of American strategy towards the region has been 
to prevent the establishment of exclusive geopolitical 
dominance of the region by any other power. A risen China 
represents a significant challenge to this fundamental 
principle of American strategy. Additionally, a risen China 
represents a challenge to the long-term success of the liberal 
regional order. Although China does not seek to explicitly 
overthrow the established order, Beijing has sought to carve 
out exceptions in established rules and norms it finds contrary 
to the interest of the Chinese Communist Party.
    Second main point: China seeks to establish itself as a 
dominant power in the Indo-Pacific, and has developed a 
tailored military capability designed to undermine the ability 
of the U.S. military to operate and project power into regions 
associated with key contingencies along China's periphery.
    Beijing's ultimate vision for the future envisages a 
revitalized China that is stable and prosperous at home, 
dominant in the Indo-Pacific, and able to shape events around 
the world through an informal hierarchical system with China at 
the center.
    Xi Jinping has established the goal of fully transforming 
the PLA [People's Liberation Army] into a world-class force by 
the middle of the 21st century. The PLA's objective is to be 
capable of fighting and winning so-called informatized local 
wars, and seeks to erode the ability of the United States to 
intervene in a conflict and successfully uphold U.S. security 
commitments in the Indo-Pacific.
    Yet, China does not seek war. Instead China has employed 
so-called gray-zone tactics that are calculated to avoid an 
armed conflict while still advancing China's broader political 
ambitions.
    Third main point: The Department of Defense can play a 
critical role in supporting U.S. geopolitical competition with 
China, by pursuing a range of initiatives that sustain 
conventional deterrence, build resilience against Chinese 
coercion, and assure the ability of the U.S. military to 
respond decisively in a conflict or crisis.
    And the fourth main point: To achieve these ends, the 
United States should pursue a broad array of initiatives that 
empower U.S. allies and partners, change how we fight, build on 
U.S. technological advantages, update regional force posture, 
and make difficult choices that prioritize competition with 
China over other challenges around the world.
    I won't go into depth of each of these in my presentation 
this morning, but just touch on a few critical issues. First, a 
unique and critical advantage for the United States in the 
Indo-Pacific is its network of alliance and partnerships. As 
competition with China intensifies, the United States should 
strengthen these relationships.
    Moreover, to sustain the ability of the U.S. military to 
maintain credible deterrence in the Indo-Pacific, the United 
States must change how it goes to war. This will require 
renewed emphasis on dispersion, unpredictability, resilience, 
and mobility.
    Additionally, the United States should conduct a review of 
its regional force posture with an eye to supporting new 
concepts of operations under development. The United States 
should establish a significant dedicated fund along the lines 
of the European Deterrence Initiative to support a renewed and 
more resilient military posture in INDOPACOM [U.S. Indo-Pacific 
Command].
    Finally, truly prioritizing the Indo-Pacific and 
competition with China in U.S. foreign policy and national 
security strategy will inevitably have significant budgetary 
implications. In an environment of finite resources, this, of 
course, means making difficult choices and accepting risk in 
other areas.
    In conclusion, there is no doubt that the Indo-Pacific will 
be a critical region in the 21st century. The issues we 
confront today are of historic consequence. Ultimately, despite 
the significant challenges we face, I remain fully confident in 
the ability of the United States to ultimately succeed in this 
competition, and maintain regional peace and stability.
    Again, thank you very much for inviting me today. I look 
forward to your questions.
    [The prepared statement of Mr. Denmark can be found in the 
Appendix on page 66.]
    The Chairman. Thank you. Dr. Mahnken.

 STATEMENT OF THOMAS G. MAHNKEN, PRESIDENT AND CHIEF EXECUTIVE 
    OFFICER, CENTER FOR STRATEGIC AND BUDGETARY ASSESSMENTS

    Dr. Mahnken. Thank you, Chairman Smith, Ranking Member 
Thornberry, Congressman Wilson, members of the committee. Thank 
you for the opportunity to appear before you today to discuss 
the vital role of the Department of Defense in competing over 
the long term with China and Russia. As you know, the top 
priority accorded to this challenge was acknowledged in the 
2018 National Defense Strategy. And as a member of the 
independent National Defense Strategy Commission, I studied the 
defense strategy in detail and worked with my colleagues to 
develop recommendations on how the United States can meet its 
defense objectives. And one of the most immediate challenges 
facing the United States is the need to understand the 
multidimensional challenge posed by China and Russia, one that 
includes not only increasingly sophisticated military threats, 
but also integrated use of political warfare and economic 
statecraft.
    China and Russia are competing with us every day, both 
around the globe and across the spectrum of functional domains, 
and their actions do not neatly adhere to our view of peace 
versus war, nor do the challenges that they pose align neatly 
with our bureaucratic silos. In some domains, such as space and 
cyberspace, what they are doing goes far beyond a common 
notion, our common notion of competition. And most 
consequently, with the reality of competition with China and 
Russia comes the increasing possibility that we could face one 
or both of them in war. However unlikely in the absolute, that 
contingency is more likely today than it was 5 years ago.
    And I would note that this competition, far from being 
confined to the Western Pacific and Europe, is really 
increasingly global. And so, there is a mismatch between the 
nature of the challenge we face and the way that we are 
organized to deal with it. And certainly, the United States 
will not be able to counter these threats without close 
cooperation with partners who share our priorities and our 
values. And so as we develop a strategy, as we develop our 
concepts, and as we develop our capabilities, it is imperative 
that we work closely with our allies and partners. And if we 
want our allies and partners to do more, we will need to ensure 
that they have access to the means necessary to do more, 
including through arms exports.
    Now, as a member of the National Defense Strategy 
Commission, we found that as good as the National Defense 
Strategy [NDS] is, we believe that the Department needs to 
rethink some of the assumptions underpinning it, or at least 
justify how it will account for alternative contingencies. The 
NDS is built around planning for one major war, thus abandoning 
the two-war construct that has guided the Department of 
Defense's planning for decades. It is unclear why the 
Department has adopted a one-war concept, despite the threats 
posed by two major power competitors, as well as the regional 
rogues and transnational terrorism as you, Chairman Smith, 
mentioned at the outset. But if we are to have a one-war 
strategy, I think a priority needs to be how we handle other 
theaters and other contingencies, including through deterrence.
    Now, if we hope to meet the challenges posed by China and 
Russia, we will need to overhaul dramatically many of our 
capabilities as quickly as possible. We have fallen behind in 
many areas because of our focus on counterterrorism and 
counterinsurgency over the past two decades. Each military 
service clearly confronts its own shortfalls and challenges. 
And the addition of Space Force, while a good remedy to make 
sure that space gets the attention that it deserves, also has a 
bill attached to it. And we should not underestimate the cost 
that will be associated with standing up a new service and 
combatant command.
    Many of the elements of the U.S. nuclear arsenal are 
rapidly aging and rapidly approaching the end of their service 
lives at a time when America's adversaries are modernizing and 
in some cases expanding their nuclear capabilities.
    So in a world where we face competition with China and 
Russia, in a world where we face North Korea with nuclear 
capabilities and Iran that is seeking them, and in a world 
where the Defense Department is planning for one war, I would 
argue that nuclear deterrence is likely to be more rather than 
less important.
    Other shortfalls need to be addressed as well in terms of 
power projection, gaining dominance of the electromagnetic 
spectrum, and in cyberspace. Overall, we have reached a point 
where doing more of the same is insufficient to the challenges 
we face. Rather, the Defense Department needs to invest boldly 
in new concepts of operations and the capabilities to carry 
them out. Promising approaches, such as DARPA's [Defense 
Advanced Research Projects Agency's] Mosaic Warfare program 
with its emphasis on gaining decision superiority over an 
adversary deserves support, as do the low-cost disaggregated 
forces that it envisions.
    More broadly, developing new concepts and fielding new 
organizations to deter Chinese and Russian aggression should 
become the urgent focus of the Defense Department. And in my 
written testimony, I lay out a couple of points of departure, 
including a new concept of deterrence that could involve U.S. 
and allied ISR [intelligence, surveillance, and reconnaissance] 
networks composed of unmanned systems to help shine the light 
figuratively and literally on gray-zone aggression and deter 
acts of greater aggression. A new concept of conventional 
defense involving the development of mobile land-based 
conventional anti-ship, anti-air, and land attack missiles; 
and, we also sorely need new concepts for defending our bases, 
because however much we want to disperse our forces, we are 
still going to be reliant, to a large degree, on fixed bases.
    Now, the development of new concepts and capabilities 
should not be ends in and of themselves. Too often in the past, 
such experiments have been side projects that create a facade 
of innovation without actually having any substantial impact.
    As a result, the forces we have today and many of the 
forces we are currently procuring are out of alignment with the 
world of 2020 and beyond. The objective of concept development 
and experimentation must be to inform major shifts in 
investment in the size and shape of the U.S. Armed Forces.
    Our resources are clearly not limited, and the American 
taxpayer deserves to know that his dollars are being spent 
wisely. That having been said, history will ultimately judge 
our efforts not merely, or mainly, on efficiency, but by their 
ultimate effectiveness. Current funding levels and processes 
are not conducive to waging and winning a long-term strategic 
competition.
    The United States defense budget is not keeping pace with 
inflation or the challenges facing our country. Over the past 
decade, political dysfunction has led to disruptions in defense 
spending and weakened America's ability to compete. In 
particular, defense spending was slashed substantially by the 
Budget Control Act [BCA] of 2011 to the tune of $539 billion 
between 2012 and 2019. BCA cuts led the DOD to rely on overseas 
contingency operations funding to pay for operations in the 
Middle East and elsewhere. And it will take years of increased 
funding to ensure that the U.S. military is prepared to compete 
with China and Russia. The slight increase in DOD's fiscal year 
2020 budget is helpful, but still not enough to fund U.S. 
defense strategy with minimal risk. The Commission recommended 
the elimination of the final year of BCA caps, as well as 3 to 
5 percent annual increase in DOD's budget in inflation adjusted 
terms. This level of growth would help undo the damage 
inflicted by BCA cuts, and sustain the U.S. military's ability 
to uphold its commitments and project power.
    And to further insulate the Department's spending from 
political disruptions, Congress should give DOD the authority 
to spend O&M [operation and maintenance] funds across the 
current fiscal year and the subsequent one. It should also 
consider producing 5-year budget agreements for defense in 
order to enable the Department to safely conduct long-term 
planning. We need a strategy for the long term, because the 
threats we face are long term.
    Thank you, Chairman, Ranking Member, committee members. I 
look forward to answering your questions.
    [The prepared statement of Dr. Mahnken can be found in the 
Appendix on page 87.]
    The Chairman. Thank you. Just following up on that one 
point. I guess what I struggle with is when you look at the 
size of the challenge, if you presume that we have to have a 
military that can do everything you just said, that is 
impossible. And I think you would agree. So what would it look 
like? I mean, forget the money for the moment. What would our 
military look like in terms of what more would we have where we 
would go, Okay, we are adequately meeting the challenge of--I 
mean, gosh, fighting two major wars to begin with seems like an 
impossible thing to prepare for, unless you want to, like, just 
dump everything else in the budget, and everything else in the 
budget is passingly relevant to our national security and, I 
would submit, to the great power competition itself.
    So, what would it look like? If we were to be sitting here 
and imagining that, you know, it seems like it is okay, how 
many more ships would we have, how many more planes would we 
have, how many more nuclear weapons would we have? What more 
would we have?
    Dr. Mahnken. Mr. Chairman, I think there is a lot of room 
between a one-war strategy and doing everything. And I think we 
need to explore that space. So historically, the Defense 
Department has had a two-war construct, not because, I think, 
we honestly thought that we were----
    The Chairman. I was going to say, do you think that was 
ever really true? We had the concept, but were we actually in a 
position to fight two wars?
    Dr. Mahnken. But those forces for the second war, if you 
will, I think were vital to deterrence, deterrence of other 
acts of aggression. So, I think what we have lost in just going 
to a one-war construct is how we deal with everything else. And 
to include the role of conventional deterrence, to include the 
role of nuclear deterrence, to include the role of allies, to 
include a whole bunch of things. I think that has, 
historically, been one of the main values of thinking beyond a 
single war, is it forces you to think about the other 
contingencies that can arise. And in fact, we have a lot of 
experience fighting major wars, right? And we have a lot of 
experience fighting on multiple fronts. And I think we need to 
continue that as we go forward, and particularly in an era 
where we are facing competition with China and Russia.
    And as Dr. Polyakova said, where China and Russia are 
increasingly cooperating, it is not too difficult to envision a 
situation where we are in a crisis or in a confrontation one 
place, and another great power decides to try to exploit that. 
We just need to be prepared, we need to think that through.
    The Chairman. Understood. But you would agree that we are 
not just preparing for one war right now. We are engaged in a 
number of efforts, countering terrorism, dealing with Iran and 
North Korea. It is not like all we are doing is preparing for 
one war. So I don't think that is really either/or at this 
point.
    Dr. Mahnken. I do think there has to be some discipline to 
that conversation. One of the elements of my written remarks 
that I didn't get to in my spoken testimony, and it was one of 
the things that really came out from the National Defense 
Strategy Commission, is that the Defense Department has really 
let its analytical capability decline. So the analytical 
ability to look at different permutations, different scenarios, 
and judge the adequacy of the defense program really has 
diminished. And I think that is one of the things, one of the 
key steps that needs to be undertaken is to regain that 
analytical capability so that defense leaders can answer your 
question based on analytical work.
    The Chairman. I have one more quick question before votes. 
Dr. Polyakova, what role does development play in this 
competition? How important is it that we have a robust USAID, 
that we are actively engaged in development policy in the 
world?
    Dr. Polyakova. I thank you for the question, Mr. Chairman. 
I think it is absolutely critical. As you correctly said, we 
can't fight all wars with conventional means. The kinds of cuts 
that have been proposed to the U.S. State Department and USAID 
that support democracy work, that support independent median 
organizations that do a whole range of critical services to 
ensure that we have more allies in the world, not less, is 
absolutely critical to make sure that we are not spending more 
blood and treasure in wars.
    The Chairman. Thank you. Mr. Denmark.
    Mr. Denmark. I agree. Just as an initial caveat to my 
answer, my wife is a contractor with USAID, but with that being 
said, I haven't discussed this specific issue with her.
    I think looking back over the last several administrations, 
one of the strongest advocates for diplomacy and for 
development has come from the Department of Defense. I worked 
for Secretary Gates, and he was a very strong advocate for 
diplomacy and development, as have subsequent Secretaries of 
Defense. This was actually my first reaction, Mr. Chairman, 
when you mentioned emerging competition in Africa, that at 
least from a China context, while there may be a bit of a 
military dimension to this, the primary aspect of competition 
in Africa is much broader and multi-domain. And effective 
American tools in the developing world, especially in Africa, 
would probably not be military, but involve development and 
other acts of diplomacy.
    Dr. Mahnken. If I could, defense, diplomacy, development 
are complements to one another. They are ultimately not 
substitutes, right? U.S. diplomacy is much more effective when 
backed by credible military power, and there is only so much 
you can do to make up for a lack of military power. So I think 
they are all vital complements to one another.
    The Chairman. Thank you.
    Mr. Wilson.
    Mr. Wilson. Thank you, Mr. Chairman. And thank each of you 
for being here today. Your insight has been very positive.
    Dr. Mahnken, DOD's policy chief recently said that China 
poses the greatest threat to the Department of Defense. The 
National Defense Strategy clearly lays out a framework 
recognizing that great power competition has returned, 
particularly in regard to China. Given your role as serving on 
the National Defense Strategy Commission, what is that 
competition with China? How does it go beyond economic 
competition into military competition? What resources does DOD 
need to ensure that international rules-based order and 
sovereignty are protected?
    Dr. Mahnken. Thank you. I would agree that China is the 
greatest challenge that we face and will face in coming 
decades. That is not to dismiss the challenge posed by Russia 
and there are some similarities, but there also are some 
differences. I think as the other members of this panel have 
said, the threat posed by China is a multidimensional 
challenge. And what we have is a competitor that takes a long 
view, takes an integrated view of economics, politics, 
information, military affairs, and is using that to forward its 
interests, its interests in the Western Pacific and beyond the 
Western Pacific, if the Chinese Communist Party leadership 
seeks to stay in power, seeks to insulate itself from 
challenges, and, also, seeks to increase its influence. So, it 
is increasingly a global challenge and a multidimensional one.
    Mr. Wilson. Thank you very much.
    Dr. Polyakova, I appreciate very much you citing the actual 
Russian military expenditures. It is somewhat sad because their 
prior existence has been to burden the people of Russia with 
such a military expenditure which reduces the capabilities for 
the Russian people. Keeping that in mind, many of our European 
allies are overly dependent on the use of Russian natural gas 
for their energy needs and the construction of the Nord Stream 
2 pipeline has been particularly something we need to observe.
    In what ways will Russia use that energy reliance to put 
pressure on European allies and further their strategic goals? 
And in what ways can we counter that advantage?
    Dr. Polyakova. Well, first, I would commend the work of 
this committee and the U.S. Congress more broadly for including 
sanctions on the Nord Stream 2 pipeline in the 2020 NDAA. I 
think those are long overdue, and I was very glad to see them 
included. That being said, Russia has a very long history of 
using energy resources especially as a form of economic 
warfare. In fact, energy fits quite squarely into Russia's own 
vision of political warfare more broadly, which includes a 
whole other set of tactics and tools.
    The expectation is, as Russia has done in Ukraine with some 
of the debates over gas transit fees going through Ukraine to 
Europe, it will continue to use pipeline projects as a way to 
basically import corruption, import kleptocracy into these 
countries, and try to gain a foothold to influence European 
politics and policy. And last point is that these projects are 
also incredibly divisive within the European Union.
    Mr. Wilson. Thank you. And as you cited that it was just so 
recently, the threats against Belarus, and, indeed, the people 
of Belarus now see--particularly appreciate Secretary Pompeo 
visiting Minsk, and letting the people of Belarus know that we 
look forward to working with them in the future.
    And Mr. Denmark, since 2004, China has established 100 
Confucius Institutes at American universities, and now they 
are, because of recommendations from the U.S.-China Economic 
and Security Review Commission, we are setting, by GAO 
[Government Accountability Office], a request for assessment of 
the risk of China's efforts to co-opt foreign researchers at 
U.S. universities to unlawfully appropriate research and other 
knowledge to benefit the People's Republic of China. From some 
of these universities hosting Confucius Institute and DOD 
contracts, what recommendations do you suggest to protect our 
national intelligence and defense research?
    Mr. Denmark. Thank you, Congressman Wilson, for that 
question. China's use of Confucius Institutes and other avenues 
of influence, not only in the United States but around the 
world, is a central aspect of China's broader strategy for 
influence around the world, which Chairman Mao actually 
referred to as magic weapons of the Chinese Communist Party, 
and we have produced a lot of analysis on this issue in the 
Wilson Center.
    China is seeking access to foreign technology; it requires 
it both for military and for civilian purposes. And it will 
employ any means to get them, either legally, illegally, 
openly, covertly; they will do what it takes to get there. We 
have seen, unfortunately, several instances in which the 
Chinese Communist Party--Chinese intelligence----
    The Chairman. I am sorry. The gentleman's time has expired. 
I should have pointed this out early on. We try to keep it to 5 
minutes so as to get to everybody----
    Mr. Wilson. Thank you all.
    The Chairman [continuing]. Even if it is in the middle of 
an answer. I will try not to just cut you off, but if we can 
try to, close as possible, be done at the 5-minute mark, that 
would be great.
    Mr. Carbajal.
    Mr. Carbajal. Thank you, Mr. Chairman. There is a growing 
threat to U.S. national security and space from adversaries, 
particularly Russia and China.
    Dr. Mahnken, you state in your testimony that the two 
countries have been attempting to replicate U.S. space 
capabilities, and develop counter-space capabilities to degrade 
our advantage. How can the DOD be more effective countering 
Russia and Chinese threats to U.S. assets in space?
    Dr. Mahnken. Thank you, Congressman. That is an excellent 
question. I think--you are right, that they are--both Russia 
and China are building up their own space capabilities, they 
are also building up the ability to deny us the use of space. I 
think Space Force is a good first step to have an organization 
that really is charged with operations in space. I think we 
also need to think very seriously about deterrence in space, 
how we deliver messages to competitors when they do things that 
we see as threatening in space. And we also need to minimize, 
diversify our dependence on space.
    That is a little bit easier for Russia and China where most 
of the conflicts that they foresee would be home games, so they 
have ready alternatives to space. But I think we need to look 
at space alternatives, like using unmanned aerial systems, 
using other means to be able to mitigate the risk that we face 
in space.
    Mr. Carbajal. Thank you. To all witnesses, how can the DOD 
improve upon our strategy to counter China's military-civil 
fusion policy?
    Mr. Denmark. In terms of civil-military fusion, the Chinese 
when they talk about civil-military relations, it is in a very 
different context. For them, it is about appropriating civilian 
resources and technology for military purposes. I think we need 
to be nuanced in our approach to this. The Department of 
Defense, I think, has done a very credible job of working on 
these issues, identifying challenges in terms of Chinese 
engagement in critical U.S. supply chains, the challenges posed 
by Chinese investments, but has been a bit--could use a more 
surgical approach to these things. Instead of cutting with a 
broad brush, any sort of Chinese investment in any company is 
seen as a threat, but, rather, digging into these investments, 
understanding who we're actually talking about, understanding 
what the technologies are, and finding a way to mitigate risk 
rather than completely develop a way to have zero risk at all, 
which, I think, is, unfortunately, impossible.
    Dr. Mahnken. And I would also add to that, that I think 
clear communication between government and industry and 
academia really is vital, that both sides need to be talking to 
one another, needs to be a free flow of information on both 
sides.
    Mr. Carbajal. Thank you.
    Dr. Polyakova, how can DOD better work with our allies to 
counter Russian aggression in Europe, specifically Russia's 
hybrid warfare tactics?
    Dr. Polyakova. Thank you for the question, Congressman. As 
I outline in some detail in my written testimony, one, we must 
continue to invest in NATO and EDI. Continued uninterrupted 
funding for the European Deterrence Initiative is critical to 
sending a very clear signal to Russia that the United States 
does stand behind its allies, especially in Europe's eastern 
flank. One issue that we have to continue to think through is 
issues of interoperability and military mobility across Europe. 
The United States will lead one of largest military exercises. 
Their preparation is starting already in May and June, the 
Defender 2020 exercises. I think these kind of exercises are 
critical for showing our ability to respond, but also, for 
putting the burden of escalation back on Russia versus the 
United States and our European allies in NATO.
    Mr. Carbajal. Thank you.
    Mr. Chairman, I yield back.
    The Chairman. Thank you. Mr. Turner.
    Mr. Turner. Hi. Dr. Polyakova, I appreciate your testimony 
and your pointing out the issue of what Russia is doing to 
advance its nuclear capabilities which, of course, raises the 
issue of our nuclear capabilities, because in order for us, as 
Dr. Mahnken says, in order for us to have credible deterrence, 
we have to have capable and credible nuclear capabilities. Now, 
you point out some of the new weapons that Russia has produced. 
Many times, people throw around the word Russia's nuclear 
modernization, and that sounds like what we are trying to do. 
What we are trying to do is modernize nuclear weapons, which is 
replace the capabilities we currently have with modern 
capabilities, meaning weapons capable of achieving the exact 
same goal only with modern components, modern delivery systems.
    What they are doing is not modernization. What they are 
doing is creating whole new capable systems. You have in your 
testimony, Avangard, which is the hypersonic boost weapon. We 
have nothing like this. The Kinzhal, which is an air-launched 
ballistic nuclear-capable missile, brand new. Their ground-
launched cruise missile, which is the INF [Intermediate-Range 
Nuclear Forces] Treaty violator, the SSC-8; the Raduga, KH-101, 
which is a nuclear-capable air launch cruise missile; there is 
Skyfall, nuclear-powered, nuclear-armed missile. There has 
never been anything like Skyfall on the planet. This is not 
nuclear modernization.
    The Poseidon, an underwater, unmanned system, that is like 
an underwater cruise missile, nothing ever like it on the 
planet. All of these are incredibly destabilizing weapons. And 
no matter how much we spend just to try to replace the things 
that we have, we are not even trying to match these 
capabilities, which means that it undermines the deterrence.
    The New York Times, in just doing an analysis of the 
President's budget on what the price tag is going to be for 
nuclear modernization, points out that some of the weapons that 
the President is actually going to start funding that we have 
all called for modernization as part of our nuclear weapons and 
nuclear posture review are 40 years old. I would like each of 
you, if you could respond to the place that we are in right now 
as we are facing these new weapons that have never existed 
before, that, by the way, I would conjecture have first-strike 
capabilities, regardless of what the intention is on the other 
side, first-strike capabilities, and we are just trying to be 
able to maintain what we have. If each of you would comment on 
what does that do for this near-peer, or power-to-power 
competition that we have with our adversaries?
    Dr. Polyakova. Thank you, Congressman; absolutely important 
question. I would state just one caveat before I answer, one is 
that although Russia, and especially Mr. Putin, really like to 
show off these new capabilities, there still are a lot of 
questions about their actual operational----
    Mr. Turner. And you have not had classified briefings that 
we received. So in giving us that caveat, let me assure you 
that we have received classified briefings that are very 
concerning and answer that.
    Dr. Polyakova. You do have access to information I do not 
have. I will say that this--the kind of disparity you describe 
is the direct consequence of the development of Russia's 
nuclear posture and the U.S. nuclear posture in basically 
opposite directions, at least for the last decade, but 
certainly even before. And we do find ourselves in the position 
where we are far behind in developing the kinds of capabilities 
that would match what the Russians have been developing over 
the course of their own military modernization program.
    I will say that for Russia nuclear posture is the most 
important guarantee of its own security because it does lack 
other capabilities to guarantee its own security in the 
homeland, and that----
    Mr. Turner. I understand. But you do find the weapons 
concerning?
    Dr. Polyakova. I do find them very concerning.
    Mr. Turner. Dr. Mahnken.
    Dr. Mahnken. Congressman, the American people have gotten 
huge value from the past investments in the U.S. nuclear 
deterrent, maybe too much, in that administrations, Democrat 
and Republican, have kicked nuclear modernization down the 
road, so that what we now face is the imperative of nuclear 
modernization or the alternative of, essentially, unilateral 
disarmament. And we can talk about how we got here, but we are 
where we are, unfortunately.
    Mr. Turner. Mr. Denmark, the bill is coming due. What do 
you have to say?
    Mr. Denmark. Very rapidly, modernization and showing our 
nuclear weapons are capable, the nuclear deterrence remains 
effective, is very important. The nuclear dynamic with China is 
very different than the nuclear dynamic with Russia. I 
understand we are running out of time, but I would be happy to 
get into that at a later time, or with you privately.
    Mr. Turner. Thank you. Mr. Chairman.
    The Chairman. Thank you.
    Mr. Brown.
    Mr. Brown. Thank you, Mr. Chairman. I'd like to turn our 
attention back to Africa. We are seeing rapid economic growth, 
coupled with a growth in conflict in certain regions around the 
continent. China has dramatically increased its presence, 
certainly a military presence, but its economic presence is 
exploding. Russia has a noticeable presence, the private armies 
and also an economic presence. The question for each of you, 
and if you could take maybe no more than a minute and 10 
seconds each, or a minute each, what is the great power 
competition? What does it look like in Africa? What is the role 
of the DOD, particularly now as Secretary Esper is looking at 
force optimization, maybe a reduction, maybe a decrease, but 
also what the role is in addition to the size? And is it time 
for, in Africa, reassurance initiative that would sort of be a 
blend of the European Deterrence Initiative, which is heavy 
military, and the Asia Reassurance Initiative, which is a lot 
more diplomatic and developmental? Thank you. And we can start 
with Dr. Polyakova and then work down to the other side. Thank 
you.
    Dr. Polyakova. Thank you, Congressman. In my written 
testimony, I spent a significant amount of time talking about 
Russia's engagement in Africa especially. The Russian strategy 
is very different than the Chinese strategy, mainly because 
Russia does not have the kinds of resources to commit to 
development projects. That is more of a long-term game. As 
elsewhere, Russia tries to fill vacuums, fill power voids, and 
exploit issues and tensions that are already there on the 
ground. So basically, in every single conflict in Africa we now 
see the presence of Russian proxy military forces, most notably 
the Wagner Group, but there are also others that are active in 
various arenas in Africa, in Libya, in Sudan, Mozambique, CAR 
[Central African Republic], and elsewhere. As we consider our 
own priorities in the United States, and particularly the 
pullout or potential reduction of forces in Africa, I would 
just note that we, as the United States, even maintaining a 
small force, acts as a deterrent on Russian activities given 
how relatively small those activities are, so a few hundred 
proxy military forces. But as soon as we pull away, and this is 
the lesson from Syria, the Russians will step in relatively low 
resources that will dramatically shift the various conflicts 
that it's engaged in on the ground.
    Mr. Brown. Thank you.
    Mr. Denmark. China's strategy with Africa is primarily 
political and economic. China likes to cast itself as the 
champion of the developing world and has regular high-level 
engagements with leaders across Africa, with Chinese officials 
visiting Africa, African officials visiting China, promoting 
the trade agreements, gaining access to African resources, 
attempting to build economic and political connections between 
Africa and China. But China's objectives are different than how 
we would see from the United States, or how we've seen even 
from Russia, in that there is very little interest in providing 
public goods.
    We recently saw China establish a military base in 
Djibouti. This base is not going to be used to help sustain 
stability. It is really being used to protect Chinese people, 
Chinese interest, Chinese shipping. And so, similarly, if we 
see military expanded footprint by the Chinese in Africa, I 
expect to see them doing more to protect Chinese people who are 
operating--Chinese businesspeople who are operating there.
    Mr. Brown. And the U.S. role?
    Mr. Denmark. They see the United States as a competitor in 
Africa, but I think that the United States role needs to be to 
sustain, build stability, to enhance robust economic growth 
across the continent, but also, to ensure that liberal 
democratic government----
    Mr. Brown. And the role of the DOD in doing that?
    Mr. Denmark. I think the Department of Defense is primarily 
a supporting role in Africa.
    Mr. Brown. Increase or decrease troop levels?
    Mr. Denmark. I think in terms of troop levels, I would say 
it is probably at an okay point. I wouldn't want to see too 
much of an increase, because I don't think that is where the 
bulk of our military competition----
    Mr. Brown. Thank you. Dr. Mahnken.
    Dr. Mahnken. Yeah, Congressman, the one thing that I would 
add is actually a piece of good news, which is we have capable 
allies whose interests align with ours in Africa, first and 
foremost, France. And so, to answer the question of DOD posture 
or U.S. military posture, I think however we move forward, we 
should be doing it in close consultation with our French 
allies. They have been bearing part of the burden, they, I 
believe, are willing to continue to do it, but they need 
support. They need support in terms of U.S. capabilities, and 
to a limited extent, U.S. forces as well.
    Mr. Brown. And then just sort of quick. In terms of the 
initiative, we did the European Deterrence Initiative, 
reassurance initiative, as the name suggested, to reassure. You 
didn't have to do an initiative, you could have just done the 
underlying investments. Is it time for an initiative to send a 
signal that we are taking Africa seriously in a coordinated 
fashion, yes or no?
    Dr. Polyakova. I think that will send a strong message, 
yes.
    Mr. Denmark. I would agree.
    Dr. Mahnken. Agree.
    Mr. Brown. Thank you.
    Thank you, Mr. Chairman. I yield back.
    The Chairman. Thank you. Mr. Wittman.
    Mr. Wittman. Thank you, Mr. Chairman. I want to go to Mr. 
Denmark and Dr. Mahnken. If you look at where we are as United 
States military, and the challenges that we have around the 
world, we look at having to project power in places like the 
Pacific, in areas like the North Atlantic, in order to counter 
what we see today as near-peer adversaries. And what we are 
seeing is those near-peer adversaries continue to expand their 
reach. We see the Chinese now having a Chinese naval facility 
at Djibouti. We see them operating in the North Atlantic. We 
see them outside the first island chain. So what happens, as 
you have pointed out in that realm, is our adversaries continue 
to deny us space to operate in without putting our forces at 
risk.
    They also, too, I think, are pretty intuitive in looking at 
what we can do within that realm, not only with our capability 
at sea, which is where we try to push them back and try to 
deter them, but they also look at some other elements, and that 
is, something that doesn't always get mentioned, that is, with 
those forces, how do we support those forces? The logistics of 
those forces. And the question I have for both of you is, in 
looking at where we are today, as we talk about advancing our 
ability to project power, which normally is talk about 
warships, about capabilities within combat systems, with 
looking at where we place our forces, those strategic elements.
    One of the things that doesn't get mentioned is the 
atrophying of our support system, the atrophying of being able 
to sustain those forces. Listen, we have got a great first 
punch, but the question is, is do we have enough supplies out 
there prepositioned? Can we get fuel to the fleet? Can we do 
all the things necessary to sustain that? And if you look at 
where we are historically, and, of course, folks accuse me of 
saying, Rob, you are living in the past. But it is a pretty 
simple formula.
    Look at World War II, look at what happened in World War 
II. Where did our adversaries go to try to inflict the most 
impact on our forces? They went after our support ships. Eighty 
percent of the tonnage sunk in World War II were not warships, 
they were support ships. So give me your perspective on where 
are we today support-wise and logistics-wise to support our 
ability to deter our adversaries at distance.
    Dr. Mahnken. Congressman, that is an excellent point; 
logistics is a decidedly unsexy topic, but as you point out, it 
is a vital one. And whether it is our naval logistics fleet, 
whether it's the logistics supporting our Air Force, our ground 
forces, we do not have a logistics system that is prepared for 
great power competition or the prospect of great power 
conflict. We have been maybe taking too many pages out of the 
commercial book and focusing on efficiency, and just-in-time 
logistics, use of commercial hulls, commercial vendors. And in 
other words, I think we have built our logistical system on 
some assumptions that are poor ones for the era that we are in, 
let alone the prospect of conflict.
    Mr. Denmark. I would add, in addition to what Dr. Mahnken 
said, that our experiences over the last almost 20 years of 
conflict has allowed us to flow logistics in a relatively open 
and secure way, in a way that if we have conflict with the 
Chinese, our ability to flow logistics without impediment will 
be severely challenged.
    Now, our posture in the Asia-Pacific, I talked about this 
in my written testimony, has been historically based on a 
relatively small number of large bases. And those bases are 
increasingly under threat by Chinese precision strike 
capabilities. And so, the ability to rapidly distribute and 
preposition logistical supplies across the region so that we 
don't have to wait on the long logistical chain from back home, 
but rather can distribute and operate from unpredictable places 
across the Indo-Pacific, I think is especially important, and 
is one of the issues I talked about in terms of revitalizing 
and revising American posture in the Indo-Pacific.
    Mr. Wittman. I have one more question for all the 
witnesses. In light of the release of yesterday's fiscal year 
2021 defense budget, do you believe that we have the proper 
direction and resources based upon that to counter in 
multidomain spectrum our adversaries, our near-peer 
adversaries?
    Dr. Mahnken. Congressman, I think it is a start, but as I 
pointed out in my written testimony, I think what is really 
needed is sustained effort. So, you know, we could look at any 
President's budget, any budget, and it is just a slice. What we 
really need is sustained effort.
    Particularly, just to take the point of logistics, fixing 
our logistical system, say, to allow the Air Force to actually 
conduct distributed operations is not something that is going 
to be fixed in any given budget. It is going to require 
sustained effort.
    The Chairman. Dr. Mahnken is going to have to have the last 
word on that. The other two can submit things for the record if 
they want.
    [The information referred to can be found in the Appendix 
on page 103.]
    The Chairman. Mr. Keating.
    Mr. Keating. Thank you, Mr. Chairman.
    Former Secretary Mattis always emphasized that the 
military's purpose is to support and bolster the work of U.S. 
economic and State Department interests. I want to really 
direct my questions to Dr. Polyakova in this respect.
    First of all, I agree with the work of--the support of this 
committee and the administration with EDI and the rotation of 
troops in Europe. I think it is important. But let's get into 
something just as important, if not more important. That is the 
fact that our economic interests are here. This administration 
is getting involved in a tariff fight with our allies in Europe 
instead of working for a free trade agreement with the EU 
[European Union] as a whole, not just bilateral, and now a 
separate one with the U.K. [United Kingdom] that parallels 
that. That is a way to stand up to China because together we 
have half the world's GDP [gross domestic product] and we are 
dealing from strength. It is also the strongest thing we can do 
with Russia to fight back.
    But I also want to talk now about the fact that the backup 
to this military--it is really not backup, but the efforts of 
the administration with what is going on, there are issues of 
resolve of the U.S., and there are downright contradictions. 
There are many. Let me give you some: pulling out of Syria 
without even notifying our allies when they had troops on the 
ground; pulling out of the INF Treaty without even consulting 
in advance with our European allies; getting involved with the 
JCPOA [Joint Comprehensive Plan of Action] that we went in 
together, pulling out of that, the conflicts and sanctions that 
surround that that affect our European allies; and, indeed, 
some of the actions surrounding Ukraine itself.
    Look at the fact that, while the peace talks were going on 
between Ukraine and Russia, in the shadow of those peace talks 
the President invited Foreign Minister Lavrov to the White 
House at that time. And then the July 25, 2019, phone call with 
the President and President Zelensky; he wanted President 
Zelensky to investigate his own country, in terms of their 
interference in the U.S. election, when all our intelligence is 
saying they were not involved, that it was indeed Russia.
    We are sending these contradictory messages. We are 
undercutting our efforts with our allies. Now, we can sit here 
and talk about our military work, and that is so important, but 
this affects everything we are doing, including that military 
posture, dramatically.
    With your experience in Russia disinformation and work at 
the Atlantic Council, Dr. Polyakova, can you tell us the 
importance of this and how these contradictions and lack of 
resolve sometimes can really drastically and profoundly 
undercut our effort with our most important allies, which is 
what we are talking about here today?
    Dr. Polyakova. Thank you, Congressman. I would agree with 
you on the point that the administration has been sending very 
mixed messages to our allies in Europe. On the one hand, we 
have increased to a great degree our support for EDI, which I 
think has been a very good thing. Also, the Baltic Reassurance 
Initiative proposal, which is on the floor of this House, and 
the increase in rotational forces in Poland. So the security 
defense issue----
    Mr. Keating. That is fine. I want you to deal with the 
other issues. I want you to deal with actions like the phone 
call, asking President Zelensky to investigate his own country. 
I want to ask you about what message that sends to our allies 
and to Russia when Lavrov is here in the shadow of those peace 
talks and we still haven't had President Zelensky to the White 
House for an official visit.
    Dr. Polyakova. Well, my concern is that the message being 
received is that U.S. support for Ukraine is more tenuous than 
it actually needs to be and should be to deter further Russian 
aggression in that country. For that reason, I think it is 
important, especially for the United States Congress, to take a 
strong stand and reassure Ukraine through the Stand with 
Ukraine Act, which was passed some years ago in both Houses of 
Congress.
    I would agree with you that we have seen some fissures in 
the transatlantic relationship as a result of these kinds of 
mixed messages from the administration.
    Mr. Keating. Great. I have a resolution that I put in quite 
some time ago in the Foreign Affairs Committee that will 
demonstrate our commitment to Ukraine and clear the air on some 
of these issues.
    Mr. Chairman, I am actually going to yield back some time.
    The Chairman. Thank you.
    Mrs. Hartzler.
    Mrs. Hartzler. Thank you, Mr. Chairman. And I am very 
grateful that the President did send Javelins over there 
whereas the previous administration only sent blankets and MREs 
[meals, ready-to-eat]. So I appreciate his support for Ukraine.
    My question is: Last month, Harvard University Professor 
Charles Lieber was arrested on charges related to his 
participation in China's Thousand Talents Program. And, as we 
know, according to the charges, while Dr. Lieber was receiving 
over $15 million in funding from the National Institutes of 
Health and the Department of Defense, Dr. Lieber was also 
allegedly being paid hundreds of thousands of dollars per month 
by the Thousand Talents Program to conduct nanotechnology 
research beneficial to China and recruiting other scientists to 
work for China.
    So, Dr. Mahnken, what is DOD's role in protecting sensitive 
research here at home, and what policies should DOD implement 
to safeguard defense research at universities?
    Dr. Mahnken. Thank you. Look, I think, at one level, we 
have a clash of two different worlds, a world of academic 
research where the idea is free and open exchange of 
information and the world of national security research where 
we, rightly, have to protect research.
    We have been able to handle that in the past. I grew up 
around oceanographers who did work both for the National 
Science Foundation and for the U.S. Department of Defense. They 
could walk and chew gum at the same time. I think what we need 
to do is we need to be very clear as to what is permissible, 
what isn't permissible, and we need to hold people accountable. 
I think it is an issue now, in part, because the ethic has 
lapsed, and you have a lot of folks that are willing to accept 
money either to benefit themselves or to support their research 
without really thinking about the full consequences.
    Mrs. Hartzler. It is my understanding that currently when 
they come here to do the research, they are provided with 
information about what degree they may be going into, but then, 
as they go through the system and they can change majors, they 
can go to another program, and the State Department, the visa, 
and the DOD do not track that.
    Do you think there should be more supervision of Chinese 
students to make sure that they are not getting into areas that 
could be a threat to our national security?
    Dr. Mahnken. I think we need to have supervision of 
students from a whole range of areas to make sure that they are 
out of sensitive areas. And on the faculty side, there needs to 
be responsibility as well not to be engaging students from 
certain countries as research assistants, for example, for 
their projects.
    Mrs. Hartzler. Great. Shifting gears to both you and Mr. 
Denmark, what specific U.S. defense investments should the 
Department prioritize for major state competition, and do you 
agree with the Army's focus on ``big six'' modernization 
priorities and the Air Force's plan to increase capability and 
capacity through the modernization of its fleet and increasing 
the squadron force structure?
    Dr. Mahnken. Modernization is an imperative because it has 
been deferred for far too long in far too many areas. 
Particularly for the Army, I think one of the challenges the 
Army faces is sort of a split focus. A lot of the Army is 
focused on Europe and countering Russia, and I think that is 
important. I think that the Army also has an important role to 
play in the Pacific. Navy and the Air Force, just by the nature 
of maritime and seapower, are more flexible, but I think that 
poses a particular challenge for Army modernization.
    Mrs. Hartzler. Mr. Denmark.
    Mr. Denmark. I tend to focus more on the types of 
capabilities that the United States would need rather than 
specific systems in my testimony. The United States needs the 
ability to penetrate and operate within denied spaces and 
eventually degrade China's ability to deny the United States 
those spaces. So, to me, capabilities that are mobile, 
unpredictable, unmanned, subsurface to me are the most 
promising sorts of capabilities. I think each service has an 
important role to play in this area, but it will require new 
concepts of operations, new kinds of investments, and a new 
posture.
    Mrs. Hartzler. Very good. Thank you very much.
    Do you have anything to add, Dr. Polyakova? Okay.
    Thank you, I yield back.
    The Chairman. Thank you.
    Mr. Kim.
    Mr. Kim. Thank you so much for taking the time to come on 
out here. I just want to kind of take a step back a little bit. 
You know, the last time we were engaged as a nation in real 
great power competition during the cold war, I think, there was 
a lot of understanding in the American people what was at stake 
and the threat that was faced.
    But I will tell you, you know, in my district in New 
Jersey, you know, I feel like we are still not kind of punching 
together a clear and coherent and kind of pithy explanation of 
what exactly is at stake and why should people care about it.
    So, if you wouldn't mind, I would just like to ask the 
three of you, how would you explain to people in my district 
why they should care about this, why they should care about 
China and Russia and this great power competition as opposed to 
how we talked about it a couple decades ago?
    Doctor.
    Dr. Polyakova. I don't know if this will be as pithy as you 
would like, Congressman, but I think the critical point here is 
that the reason why the United States has enjoyed relative 
security and prosperity is because we have had allies across 
the world to put forward our vision of democracy. And the 
reason why we have a democratic society here in the United 
States and in Europe is because of U.S. leadership across the 
world. And it is exactly this U.S. leadership and our model of 
democracy, our basic principles of human rights, freedom of 
speech, freedom of assembly, are actively being undermined and 
challenged by these countries.
    Mr. Kim. Okay.
    Mr. Denmark.
    Mr. Denmark. I would add to that very excellent answer, the 
reason there has not been a major war in Asia since the Korean 
war between major powers is because of American political and 
military leadership. And what is at stake is really the future 
destiny of the 21st century in the Indo-Pacific.
    There was an article in FT [Financial Times] last year that 
pointed out that this year, 2020, is the year when Asian 
economies will be larger than the rest of the world combined, 
as measured by PPP [purchasing power parity]. And so America's 
future is in the Indo-Pacific. In order to sustain that 
stability, to sustain that prosperity, the United States needs 
to sustain its leadership and its geopolitical power.
    Mr. Kim. Dr. Mahnken, over to you.
    Dr. Mahnken. Look, I think, as Americans, we tend to see 
peace as the natural state of things and war as kind of an 
inconvenient temporary aberration. Because of that, I think--
and we also tend to think that our values are universal, that, 
of course, everybody craves democracy, everybody craves 
prosperity. And so, because of that, I think it is very easy to 
overlook the fact that we face increasingly powerful 
challengers who see the world in a fundamentally different way.
    And I think ultimately what is at stake is our way of life, 
whether it is internationally or even, say, in the classroom, 
the future of free and open exchange in the classroom when it 
comes to students that may not be interested in those types of 
things. So we engage in self-censorship. So that is part of how 
I would make the case.
    Mr. Kim. One part that helps bring that to light is not 
just about understanding the threat or understanding the 
challenges, but trying to understand what is our right approach 
back. You know, I think, for better or worse, you know, you can 
sum up kind of the cold war with that kind of long telegram 
approach, the containment side of things, things of that 
nature.
    I feel like, you know, I am struggling to understand, you 
know, if there is sort of a guiding principle here that you can 
see, in terms of where we are at now. No longer not just kind 
of--you can't really not necessarily dust off a neo-containment 
policy necessarily. And I think there also may be some areas of 
cooperation that we need to be able to explore with some of 
these competitors. But I would love to just get your thoughts 
of just how do we try to condense down and try to, you know, 
come up with an understandable concept for folks in my 
district, around this country to understand. What is our 
guiding principle? What is our actual strategy here besides a 
big, thick document?
    Dr. Polyakova. I think our guiding strategy has to be to 
promote democratic values and principles across the world 
because no two democracies have ever gone to war with each 
other. And I don't think we as a society have direct experience 
of what it is like to shed blood and treasure for those values 
and principles, and we are losing that connection.
    And one of the narratives and the ideological battles in 
which Russia and China are involved in is to try to have a 
false equivalence narrative, that an authoritarian strongman 
society is the same as a democratic society. And that is false, 
and we have to work actively to dispel these kinds of 
disinformation narratives.
    Mr. Kim. Sure. Well, look, my time is up so I will yield 
back, but I would love to continue this conversation. Thank 
you.
    The Chairman. Thank you.
    Mr. Scott.
    Mr. Scott. Thank you, Mr. Chairman.
    I have a couple of things I would mention. One is with 
regard to our military, if we doubled the size of our military, 
we would still have capacity issues when it comes to areas like 
Africa. And while I think the committee has tried, through 
things like the ECHO programs, to build those partnerships, I 
do think we need to redouble those efforts because the only way 
to combat Russia and China in those areas that are 
geographically a long way away from us is to strengthen the 
partnerships with countries that share our values and our 
interests.
    With that said, we have talked about Africa some. We have 
talked about Europe some. What we haven't talked about much is 
the Western Hemisphere and South America and Central America. 
China's Belt and Road Initiative is, to me, effectively the 
recolonization not just of Africa but the world through 
lending, where they could intentionally trigger systemic debt-
related issues for the solvency of a country.
    And so, when we talk about Communist China and we talk 
about a military buildup, my question gets to the center of 
gravity of Communist China. Is their center of gravity the Belt 
and Road Initiative, where they can trigger systemic debt-
related crises in countries, or is their center of gravity the 
military? And why are we not talking about this with regard to 
the Western Hemisphere?
    Mr. Denmark. Thank you, Congressman.
    I think if you look at China's approach to Central and 
South America in terms of Belt and Road and economic 
initiatives, I think there is a driver of China's approach that 
goes beyond the debt trap challenge that you mentioned, which 
is not ubiquitous in all of China's trade agreements and it is 
actually something that Beijing has tried to address once it 
got a lot of public criticism for that.
    A key element of Chinese Communist Party political 
ideology, which is reflected in its trade policy, is that 
economic alignment will lead to political alignment, either 
because of greater contact, because of greater sympathy between 
those two societies, but at the very least, in a more 
realpolitik sense, that economic dependency gives China more 
leverage over those countries.
    Mr. Scott. Would you agree that that leverage could lead to 
the construction of military bases in the Western Hemisphere 
very close to the United States?
    Mr. Denmark. I think at some point it could. I think the 
Chinese are certainly--I expect the Chinese would be looking at 
that, but I also think that it is an area where the United 
States is very capable of competing if it is able to leverage 
not only its military influence with those countries but 
especially political and economic leverage with those countries 
so that those countries see that they have a choice, and they 
don't have to go with the Chinese.
    Mr. Scott. I want to give the other two a chance to answer, 
but, you know, is the center of gravity the military, or is the 
center of gravity the Belt and Road Initiative?
    Mr. Denmark. In Central and South America, I would say it 
is----
    Mr. Scott. For China.
    Mr. Denmark. For China? I would say for China, it goes 
across a lot of different measures of national power. I would 
say economics is an important piece as well as military.
    Mr. Scott. Let me let the others answer.
    Dr. Mahnken. Overall for China, I would actually say it is 
the Chinese population. That is what keeps the Chinese 
Communist Party leadership up at night. And, you know, the 
concern about the allure of democracy, the allure of 
prosperity. I think that is the ultimate center of gravity for 
China.
    Mr. Scott. Ma'am.
    Dr. Polyakova. I will just briefly comment that we should 
not forget the fact that Russia is also involved in the Western 
Hemisphere in the same way that it is involved in various parts 
of Africa as well as, most notably, in Venezuela.
    Mr. Scott. So do you think the center of gravity for China 
is the military, or is it the economics?
    Dr. Polyakova. I am not a China scholar. So I defer to my 
colleagues on that.
    Mr. Scott. Well, I want to thank you for being here. I will 
tell you I am very concerned that we don't pay enough attention 
to the Western Hemisphere. We have spent trillions of dollars 
in areas over the last several decades that are a long, long 
way from the United States, and I am very concerned that we are 
not watching what is happening in our backyard and that we may 
wake up one day where the trade relationships with China 
especially are so strong with some of those countries that 
China is able to use their influence to build military bases 
effectively in our backyard.
    With that, Mr. Chairman, I yield the remainder of my time.
    The Chairman. Thank you.
    Mr. Courtney.
    Mr. Courtney. Thank you, Mr. Chairman.
    Thank you to the witnesses for being here today.
    I know Mr. Wittman alluded while I was out of the room, Dr. 
Mahnken, about your report from last year, ``Sustaining the 
Fight: Resilient Maritime Logistics for a New Era.'' And, you 
know, yesterday we had a budget that was released that 
contained really the smallest request for shipbuilding going 
back probably about 10 or 11 years. Eight ships, two of them 
are tugboats. They cut a Virginia-class submarine that was part 
of the program of record going back to 2011.
    I just wonder if you could comment, in terms of how does 
that square with a National Defense Strategy that, clearly, you 
know, has a huge air and naval requirement if we are going to 
really be serious about, you know, pursuing it.
    Dr. Mahnken. Thank you, Congressman. The United States has 
been from its founding a maritime power, a sea power. A strong 
Navy is vital. And, you know, our surface fleet is, you know, 
one of those areas where we have deferred modernization, and 
there needs to be a lot more done, not only, you know, to 
produce newer ships but also more capable and probably more, 
whether the number is 355 or north of 355 and whatever we count 
in that. So, yeah, I think substantial effort is needed there.
    Mr. Courtney. Well, I mean, 8 ships doesn't even probably 
get you to 305, let alone 355. You were nodding your head, Mr. 
Denmark. I don't know if you want to comment.
    Mr. Denmark. I was reacting because there was a report at 
the end of last year that there was one shipyard in China that 
produced nine ships just last year alone. So, in terms of pace 
of naval power development, the Chinese are catching up 
rapidly. And that, combined with advantages they have in terms 
of geography, in terms of being able to focus on a limited 
number of contingencies, gives them a lot of room where they 
can have a distinct advantage in the naval space.
    Mr. Courtney. Thank you. And, Doctor, you know, Admiral 
Woody Lewis, who is in charge of the European naval forces, 
reported this past fall that there were eight Russian 
submarines actively deployed in the Atlantic region. I mean, 
this is not just an Indo-Pacific issue, in terms of just, you 
know, where Putin is focusing his investments in terms of his 
capital ships.
    Dr. Polyakova. Absolutely. Although Russian naval forces 
pale in comparison to the United States and will not be able to 
keep up with Chinese development, Russia is aggressively 
challenging U.S. and NATO allies in the Black Sea and the 
Baltic Sea on a daily basis.
    And I think we have not responded in a way that sends a 
clear signal to them that these kinds of challenges to our NATO 
allies are not acceptable.
    Mr. Courtney. Thank you. I think it was, Mr. Denmark, you 
talked about, again, the sort of technology edge that the U.S. 
has, you know, in terms of being a critical sort of asset in 
terms of dealing with China's rising influence in the Indo-
Pacific region. You know, one issue--and it may have come up 
while I was out--is the whole issue of 5G. And, you know, we 
obviously saw a pretty impressive stand that was taken by 
Australia and Europe, Norway, in terms of refusing to go the 
path of using Huawei as their 5G provider. We are struggling, 
it looks like, with the U.K. in terms of that.
    I just wonder if you could sort of comment in terms of that 
as being a sort of a real, you know, front and center real-time 
issue that you alluded to.
    Mr. Denmark. 5G is a very important issue, both because of 
what it is and also because of what it represents. 5G is an 
important emerging technology. It is more than just a new cell 
phone standard that will get us better speeds to watch videos, 
but, rather, it is going to change a lot about how 
infrastructure works, about how digital information is passed, 
and the use of Chinese systems, but also China being able to 
set standards in 5G is going to be very, very important.
    But it is also I think representative of how the United 
States needs to be able to prioritize competition outside of 
the military realm, in that the military is not going to 
convince the Germans or the Brits or whoever about whether or 
not to allow Huawei into their 5G networks, but, rather, that 
is a function of American prioritization, also our diplomatic, 
economic, and technological capabilities.
    Dr. Polyakova. If I may, on the European question, 5G is 
incredibly divisive at the European level. We see Eastern 
European countries, Central Eastern European countries like 
Poland, Romania, and Estonia taking a much more assertive 
stance on 5G.
    I think the biggest concern with 5G technology is the 
infrastructure question because if we allow Huawei and other 
Chinese companies to develop the infrastructure, these 
technologies build on each other. So it sets us on a certain 
path where it will be much more costly and much more difficult 
to roll it back, even if we develop competitive technologies in 
the way that my colleague just suggested.
    The Chairman. Thank you.
    Mr. Gallagher.
    Mr. Gallagher. Thank you, Mr. Chairman.
    Mr. Denmark, you worked in the Obama administration. You 
saw firsthand DOD's response to China. I want to talk a little 
bit about missiles, specifically missiles with intermediate 
ranges. I applaud your testimony for recognizing the importance 
of, quote, ``developing and deploying conventionally armed 
ground-based missiles previously prohibited by the 
Intermediate-Range Nuclear Forces Treaty.'' You go on to write 
that, ``this capability will help the United States develop a 
more dispersed, unpredictable, resilient and mobile force with 
greater efficiency and fiscal sustainability.''
    Can you just elaborate a bit on this point and the 
opportunities that we may be provided now that we are 
unconstrained by the INF?
    Mr. Denmark. Sure. Thank you for the question. The security 
situation, the security environment in Asia developed outside 
of the INF Treaty. China was not a party to it. Really, the 
only Indo-Pacific country that was a party to it was the United 
States. So China has developed a significant number of missiles 
that would violate the INF Treaty. It has been previously said 
it is something about 90 percent of China's ground-based 
missiles would violate the INF Treaty, in terms of its range. 
So it is something that the Chinese see a lot of value in.
    So, from an American point of view, I think it gives us 
options in terms of a more distributed force, but it is also 
more fiscally sustainable in that a ground-based mobile system 
would be cheaper, a cheaper way of developing missiles than an 
expensive Aegis destroyer or F-35, for example, in that it is 
distributed.
    But I do think we need to be a bit nuanced in how we talk 
about these missiles in that we tend to group together cruise 
missiles of that range and ballistic missiles of that range. I 
think they are actually quite different. I think the Chinese 
see them very differently, and I think they provide very 
different sorts of military applications.
    To me, the anti-ship cruise missiles of those ranges is 
very clearly advantageous to the United States and something 
that we should take a look at whereas I think ballistic 
missiles of that range I think are more complicated in terms of 
their military use but also their effects in terms of strategic 
stability in the region. And it is something that needs to be 
taken a look at, both internally but also in terms of hopeful, 
at some point, discussions with the Chinese on regional 
strategic stability.
    Mr. Gallagher. And what about the access agreements we 
would need to negotiate with our allies in order to deploy 
those missiles? I mean, we were told that this was impossible, 
but I believe we just announced a sale to the Aussies of a 
variety of LRASMs [Long Range Anti-Ship Missiles] to the tune 
of a billion dollars. So there seems to be at least a 
discussion going on.
    Mr. Denmark. The Japanese are looking at missiles of a 
similar range, developing those indigenously. There is I think 
certainly going to be a challenge in terms of these 
negotiations, but I do think that they would serve some degree 
of help just having them in Guam, in American territory in 
Guam, and then gradually expanding from there with exercises 
for dispersal with our allies and partners, eventually getting 
to agreements where we could actually forward base. And I think 
it is achievable, even though right now there is nobody who is 
welcoming them in with open arms.
    Mr. Gallagher. And Dr. Mahnken, I would love for you to 
maybe comment on how INF noncompliant ground-based 
intermediate-range missiles would fit within the concept of 
deterrence that you elaborate in your testimony.
    Dr. Mahnken. So a lot has been made of the threat that 
China poses to U.S. power projection forces, but China faces 
vulnerabilities of its own, the fact that its access to the 
broad Pacific Ocean is constrained by what they call the first 
island chain, what I like to call our allies and friends.
    And so deployment of missiles along that first island chain 
would force the Chinese leadership to accept a greater degree 
of uncertainty than it has had to in the success of its 
operations, whether contemplated against Taiwan, Japan, others.
    It would likely force them to shift resources because it 
would pose them a challenge that they haven't had to deal with 
before. It would force them to shift resources to the defense, 
which I think is all to the good. And it would also free up our 
naval and our air forces to use their greatest attribute, which 
is their maneuverability, rather than being tied down close to 
the Asian mainland.
    Mr. Gallagher. I appreciate that. Finally, I mean, we have 
a National Defense Strategy that everyone seems to think is 
kind of in the zone of right, saying INDOPACOM is a priority 
theater, then EUCOM [U.S. European Command], and then CENTCOM 
[U.S. Central Command], we need to find a way to operate more 
efficiently. Our funding priorities are precisely reversed, 
right? CENTCOM 50<greek-e> INDOPACOM, EUCOM 2<greek-e> 
INDOPACOM. At a broader level, if you believe the Chicago 
Council's latest poll, most Americans think CENTCOM is the most 
important theater. So, in 20 seconds, how do we reverse that?
    Dr. Mahnken. You know, through education, public education, 
elite education, and just pushing forward.
    Mr. Gallagher. I appreciate that.
    The Chairman. Thank you.
    Ms. Houlahan.
    Ms. Houlahan. Can I use 20 seconds or a minute of my time 
to get more of an answer to that question?
    Mr. Denmark. I direct the Asia Program at the Wilson 
Center, so my whole job is talking about why Asia is so 
important. I think the economic linkages between the United 
States and the region are extremely important, but the American 
public tends to get focused more by threats than by 
opportunities, I think, unfortunately. So, as the Chinese and 
the North Koreans, as those threats evolve, I think it will 
become increasingly more apparent about what is at stake and 
why the United States needs to retain its leadership role in 
the region. That is the short version.
    Ms. Houlahan. Anybody else like to contribute before I get 
on to my questions?
    So my questions have to do with, there was a conversation 
earlier about the role, the importance and concern about the 
Western Hemisphere and whether Russia and China were involved 
there and what were our vulnerabilities. My question is 
similar, but with the Arctic. And I was wondering if you guys 
would be able to comment on what we should be thinking about in 
that area. Should we maybe be thinking about an Ambassador to 
the Arctic, as an example. Are there other ideas that you can 
have? I am concerned with Belt and Road issues in that 
particular area and would love to hear your thoughts on that. 
Maybe start with Dr. Polyakova and then anybody, Mr. Denmark as 
well.
    Dr. Polyakova. Thank you. So Russia certainly has over the 
years made considered moves to kind of plant a flag in the 
Arctic and to claim Arctic resources as its own resources so 
that it can. It is in this arena that I think we need to work 
very closely with our allies. We do have quite a few allies in 
Europe who are Arctic countries in a certain sense of the word.
    There are areas I think of some cooperation that we can 
also explore with Russia and China, particularly scientific 
cooperation and research, in the way that we used to do during 
the cold war era with the Soviet Union in terms of space 
exploration and space-related research activities. But this is 
a region that will be of critical importance in the coming 
decades because of its resources, because of the kind of 
competition that we are going to see play out very directly. I 
would just once again say that this is an arena that we should 
be closely cooperating with our allies on.
    Ms. Houlahan. Mr. Denmark.
    Mr. Denmark. I was able to participate in a conference in 
Fairbanks, Alaska, a few months ago, supported by the U.S. 
military, looking at great power competition in the Arctic, 
which is a new realm for them in that the Arctic traditionally 
over the last several decades has been more of a venue for 
cooperation rather than for competition.
    I completely agree with the statement about allies. I think 
the United States needs to enhance its engagement with the 
Arctic Council, diplomatic power, again, being very important, 
but also enhancing our infrastructure in the region from a 
military point of view but also in terms of other economic 
venues of engagement with the Arctic. The United States does 
not nearly have the kind of infrastructure in place as other 
Arctic powers have, and that is an area where we could catch 
up.
    Dr. Mahnken. I would just say that there is the Arctic, and 
there is also Antarctica, right? And I think in both areas and 
even, you know, just in the global commons, we really need to 
be standing up for free and open access whereas our challengers 
are, you know, increasingly trying to divide things up. And 
whether it is the Arctic, the Antarctic, as previously has been 
said, we have a lot of allies, and we need to be working in 
concert with them to isolate those states that really seek to 
kind of divide things up and turn this into kind of a land grab 
or a resource grab.
    Ms. Houlahan. And is there any value at all to this concept 
of an Arctic Ambassador? Would you be able to comment on that?
    Dr. Polyakova. I think that is an interesting idea that is 
worthy of exploration.
    Mr. Denmark. Completely agree.
    Dr. Mahnken. Agree.
    Ms. Houlahan. Terrific. And then with the last minute of my 
time, I would like to just talk about the fact that we are 
withdrawing forces from Africa. And that seems consistent with 
the NDS, but doesn't seem consistent with the, you know, 
protection and thoughts about Belt and Road, and we are sort of 
leaving Africa behind if we take troops out. Can you also 
comment on that and the vulnerability that you perceive that we 
have, if any, by removing our troops.
    Dr. Polyakova. As I say in my written testimony, where the 
U.S. disengages, the Russians see an opportunity to step in and 
fill a power vacuum. What we learned from Syria is that Russia 
is positioning itself in the same way in Africa as it has in 
the conflict in Syria, but we can still maintain a relatively 
small and effective deterrent force in Africa despite that.
    Mr. Denmark. All I would say, in Africa the face of 
American power should not be primarily military but, rather, 
economic, development, diplomacy. So, as long we sustain enough 
of a force to be able to conduct counterterrorism missions, I 
think whatever troops we pull out of the region would need to 
be supplemented with greater elements of American development 
and economic engagement.
    Ms. Houlahan. Thank you.
    And I have run out of time, and I yield back.
    The Chairman. Mr. Banks.
    Mr. Banks. Thank you, Mr. Chairman.
    Dr. Mahnken, in your testimony, you write, quote: The 
United States must invest more in developing artificial 
intelligence, hypersonic delivery vehicles, autonomous systems 
and other advanced technologies. It must also accept greater 
risk in long-term acquisition programs in order to spur 
innovation and encourage major leaps in technological 
capabilities rather than slow incremental growth.
    I want to focus on that for a moment. I am the co-chair of 
something called the Future of Defense Task Force with 
Representative Moulton from Massachusetts, and we have been 
holding a number of hearings and roundtable discussions about 
this subject. So I am interested in the investments now that we 
need to make to invest in the preparation for the future fight. 
And so my question is, what steps could the Department take to 
embrace a more risk-tolerant mindset?
    Dr. Mahnken. Well, Congressman, I think part of that is on 
the Department, and I think part of that is on Congress. My 
dad, my late father worked on the Atlas missile program. And if 
you look at what our Nation was able to accomplish in a handful 
of years with the Atlas program, it is really staggering.
    The only reason, you know, that that was possible was, 
well, funding, but also a sense of urgency, but also a 
tolerance of risk, a tolerance of failure early on in programs. 
And all that, you know, seemed like a real natural thing to do 
in the early cold war, where we had a sense of vulnerability 
and a sense of falling behind. I think we need to recapture 
that sense of urgency today where in a number of critical areas 
we risk falling behind if we have not already fallen behind.
    Mr. Banks. Could you unpack for us a little bit more about 
what you mean by accepting greater risk in long-term 
acquisition programs?
    Dr. Mahnken. Sure.
    Mr. Banks. What does that look like?
    Dr. Mahnken. What I would say is hold the Defense 
Department accountable for the outcome and, you know, set the 
deadline, but don't micromanage the process getting there. 
Again, that applies to Congress in its oversight role, but also 
applies to various parts of the Defense Department. Objective-
based targets, time-based targets, performance-based targets, 
but let them get on with the business of harnessing the 
innovation, harnessing the skills necessary to get there.
    Mr. Banks. So how can we use that type of thinking to 
foster and grow more small- to medium-size businesses in the 
defense technology realm?
    Dr. Mahnken. Well, there is enormous innovation out there 
in the economy, right? When I was last working in the Defense 
Department, I worked with then-Deputy Secretary of Defense 
Gordon England. And Secretary England liked to say 
rhetorically, you know, what is a defense contractor?
    And his point was a defense contractor is any company that 
is willing to put up with the mountain of regulations that 
govern dealing with the Federal Government, and that small 
fraction is what we get to deal with. Everybody else gets to 
deal with the rest.
    So more opportunities to directly connect those small and 
midsize businesses that are at the cutting edge. And I know 
there are, you know, through OTAs [other transaction 
authorities] and other authorities, there are ways to do that. 
I think the more of that, the better.
    Mr. Banks. Dr. Polyakova, could you expand a little bit on 
some of what you have already shared with us about how the 
Department can better leverage artificial intelligence to 
support warfare operations?
    Dr. Polyakova. As I elaborated in my testimony on the 
Russia question, Russia has signaled its desire to invest 
significantly into AI [artificial intelligence] capabilities 
and technologies. Russia did release just this past fall its AI 
strategy as well, which I think purposely does not speak of 
national security because that will remain opaque.
    To my mind, it is China, of course, that is the greatest 
competitor when it comes to technological research and 
development, particularly in the AI space. While I don't have 
access to intelligence documents or information, I would hope 
that the United States is investing significant resources in 
developing the kinds of autonomous capabilities and AI-powered 
military capabilities because this is where certainly the 
Russians and I think the Chinese are investing their resources, 
and this will be the arena that we will have to contest with in 
the future.
    Mr. Banks. Dr. Mahnken, do you have anything to expand on 
that?
    Dr. Mahnken. I think, you know, just talking about AI as a 
field, it is a huge field with so many applications. I think 
the key things--DARPA is doing good work there; the services 
are doing good work there--is identifying, you know, the key 
contributions that AI can make. And some may be really kind of 
glamorous, glitzy, but we were talking about logistics earlier. 
I mean, some of the more promising applications may be the 
decidedly unglamorous field of logistics. We need to identify 
those applications and really push forward with them.
    The Chairman. Ms. Sherrill.
    Ms. Sherrill. Thank you so much for being here this 
morning. Mr. Denmark, can you talk through the decision of the 
Philippines to pull out of the Visiting Forces Agreement, how 
that is going to impact U.S. influence in the region and how it 
may impact the calculations of other states in the region?
    Mr. Denmark. The decision by Duterte to withdraw from the 
Visiting Forces Agreement is I think very important, both in 
terms of its practical applications, but also what it 
symbolizes. The United States conducts a significant amount of 
exercises with our Philippine allies. We have access to their 
military bases, and within 180 days of this announcement, that 
is going to go away.
    And so the Philippine military's ability to react to 
potential Chinese coercion I think will be damaged dramatically 
because of that. But, in terms of what it signals 
geopolitically, it shows that China's efforts to engage Duterte 
and a key ally is starting to split off an American treaty ally 
from the American broader sphere of influence, if you will.
    And to me, that signals to Japan, to Korea, but even beyond 
that and, more importantly, to nontreaty allies that China is 
being very effective in their efforts to undermine the 
credibility and reliability perceptions of American power and 
that, for nontreaty allies in the region, countries like India, 
it shows that the United States is having trouble responding to 
that challenge.
    Now, things may change between there. Duterte has 
demonstrated himself to be pretty unpredictable, if you will. 
And so it might not actually be concluded. We will have to wait 
and see. I expect the United States will be engaging with them 
heavily to try to stop it.
    But, in terms of a geopolitical signal, regardless of what 
happens over the next 180 days, I think the decision is going 
to reverberate around the region and signal that the United 
States, American influence and power is facing significant 
challenge from Beijing.
    Ms. Sherrill. And somewhat related, can you talk about the 
Law of the Sea Treaty and whether or not we should ratify it 
and how that would impact our efforts in the region?
    Mr. Denmark. So I think the U.N. [United Nations] 
Convention on the Law of the Sea I think is a very important 
element of established international law. From an American 
point of view, if the United States is going to be a champion 
of a liberal order based on established laws and norms, the 
Convention on the Law of the Sea is an important part of that. 
It is something that, when the Chinese are further afield from 
China, they actually adhere to it. When the Chinese sail within 
12 nautical miles of an Alaskan island, which they did a few 
years ago, that is because of the U.N. Convention on the Law of 
the Sea. And it is what allows the United States to conduct 
freedom of navigation operations in the South China Sea, for 
example.
    And by having this law, it shows that these norms are not 
just American assertions, that this is not just a question of--
Chinese violations of this law is not just a question of 
Beijing versus Washington, but, rather, it shows that Beijing 
is outside of established laws and norms that other countries 
adhere to as well. And the power of that law, the power of the 
international community can therefore push against it.
    Now, if I could very quickly--I am sorry I am taking so 
long--when the tribunal ruled against Chinese claims in the 
South China Sea in 2016, that represented I think a great 
opportunity for the United States to show that China's claims 
were outside of established international law. And we have not 
pushed that finding as much as we could in a political 
diplomatic sense. But the ruling is still there, and I think 
that it could be a key attribute of the United States, both to 
push back against Chinese assertions, but also to buttress 
international laws and norms.
    Ms. Sherrill. Thank you.
    And, Dr. Mahnken, when you mention investment in programs 
that are no longer effective in our DOD, which programs 
specifically are you referring to?
    Dr. Mahnken. Well, I think in particular, you know, we have 
had a whole string of investment, a whole stream of investment 
focused on counterterrorism, counterinsurgency. And, you know, 
I think we need to move away from those investments.
    Look, there are other investments that we have made that 
can be repurposed. So we have invested a lot in unmanned aerial 
systems, for example, nonstealthy UASes for the Middle East and 
beyond. I think there are a whole host of roles that they can 
play going forward.
    And I think there is also room, you know, for retirements 
as long as those retirements--retirements of aircraft, 
retirements of ships--as long as those retirements are paired 
with modernization, not replacing something with nothing but 
replacing something with something. Particularly for systems 
that are nearing the end of their life, where maintenance costs 
soar and you are just kind of struggling to keep them online; 
better to let them go and invest in new capabilities.
    Ms. Sherrill. Thank you.
    The Chairman. Thank you.
    Mr. Bergman.
    Mr. Bergman. Thank you, Mr. Chairman.
    Dr. Mahnken, you made a couple of interesting comments that 
caught my attention. You said we tend to think our values are 
universal. You know, I would suggest to you I appreciate that 
comment. I have heard others say it slightly different ways.
    We tend to think that other countries share our American 
values. We tend to think that they share our goals and that 
they like us. Okay. And I think that that leads to blind spots, 
especially in the latter piece there about who cares about who 
and what we value and what we intend to do.
    Now, you also made an earlier comment about the analytical 
capability of DOD lagging. I guess my concern, as a Member of 
Congress, is that, as we look at voting on, allocating money, 
authorizing money, appropriating money, and all of that that go 
into the various departments, in this case DOD, would you care 
to make any comments on where we might gain advantage, not only 
in our capability, analytical capability, by not just 
stovepiping money into in some cases an antiquated view of how 
we do things going forward? Because Department of Defense 
doesn't mean necessarily it is the department of analytical 
capability. So how would you comment on that?
    Dr. Mahnken. Thank you, Congressman.
    I think, you know, first and foremost, analytics within the 
Department give the Department's leaders and members and 
congressional staffs assurance that the money is following the 
strategy. And so the lack of analytical capability or kind of 
the erosion of analytical capability over time is----
    Mr. Bergman. But is it time that we begin to leverage as a 
Federal Government, get rid of the stovepipe? Because we could 
be missing the forest for the trees, so to speak. And that is 
kind of where I am driving with this, is that we can't expect 
departments to be all things to all people.
    We have to put them, especially in--you know, it used to be 
before the digital age, it was the big ate the small. Now it is 
the fast eat the slow. And whether we are talking warfighting, 
whether we are talking diplomacy, whether we are talking 
international aid, you name it, that that intercommunication 
between different entities trying to do it, but I guess, again, 
I am concerned that, as Congress, if we just put money into the 
same way of doing things and we expect different results, we 
have obviously----
    Dr. Mahnken. Sure. And if we look back--it is a flawed 
analogy because I don't think we are headed for a new cold 
war--but if we go back and look at the cold war and look at the 
way the national security community was structured, if we look 
at the way we thought about competing against the Soviet Union, 
there were a whole host of activities that the U.S. Government, 
just to take a narrow part of it, because it was much broader 
than the U.S. Government, thought about competition. So not 
just in military terms, not just in terms of diplomacy and 
development, but industrial policy, internal security, 
development, a whole bunch of areas.
    Now, of course, that didn't arise overnight, and it didn't 
arise, you know, with the----
    Mr. Bergman. I hate to cut you off because you can talk for 
a long time, but you got a lot to say. I appreciate that.
    Are we at a point where we can make gains by trimming the 
bureaucracies to reflect the future needs?
    Dr. Mahnken. I will say yes, and I would say because if we 
look at the post-cold war world, many of those institutions 
that grew up over decades are kind of still with us, some still 
performing their job, some not performing their jobs. So I 
think both some trimming in some areas but adding in others is 
warranted.
    Mr. Bergman. Yes, thank you, because that is managing 
change. And I would guarantee you, unfortunately, there are 
still job descriptions within the Federal Government for file 
clerks. Not that it wasn't a great job when we needed it, but 
right now that job, that FTE [full-time equivalent] has passed.
    But thank you very much, Mr. Chairman. I yield back.
    The Chairman. Thank you.
    Ms. Torres Small.
    Ms. Torres Small. Thank you. Thank you all for being here 
and for your testimony.
    I know that a lot of the discussion today has been focused 
on alliances and how do we build and continue to use and 
leverage our strategic alliances.
    And one of the areas that I am deeply interested in is 
Latin America. We have seen increased investments in China and 
Russia, trying to create, as I think it has been mentioned 
before, looking at these power vacuums and how they can take 
advantage of that.
    So would you agree that Russia is using power projection in 
an attempt to erode U.S. leadership and challenge U.S. 
influence in the Western Hemisphere?
    Dr. Polyakova. Yes, I would agree with that statement.
    Ms. Torres Small. And could you expand a little bit upon 
some of the most challenging ways that they are doing that?
    Dr. Polyakova. Again, I think the Russian model is more of 
a short-term, high-impact approach versus the Chinese model, 
which is more of a long-term but high impact in the long term 
approach. Russia is incredibly strapped for its own resources. 
Increasingly, we are seeing intensifying proxy warfare, whether 
that be through the use of disinformation campaigns in the 
digital space, which often are linked to the kinds of proxy 
military groups that we see operating on the ground there.
    Ms. Torres Small. And, Dr. Polyakova, if you can give any 
specific examples in the Western Hemisphere.
    Dr. Polyakova. I will caveat to say that I am not an expert 
on the Western Hemisphere. However, Russia's involvement in 
Venezuela--and there have been some mixed reports I would say 
in the open source in terms of their activities in support of 
Maduro especially, but I think it is--I can say with some 
confidence, based on open source reporting, the Russians have 
exported their model of supporting authoritarian leaders, 
particularly Maduro in Venezuela, to the Western Hemisphere.
    Ms. Torres Small. And how does that influence impact our 
ability to maintain alliances and also provide humanitarian 
assistance in the region?
    Dr. Polyakova. I am glad you brought up the development 
question. That has come up several times in this conversation. 
I think, first and foremost, we have to understand that Russia 
has been emboldened in recent years. The idea that the Russians 
would be active at all in what the U.S. considers its, you 
know, own backyard is quite shocking.
    One of the ways in which I think we have dropped the ball 
in some of these countries is by cutting some of our assistance 
and development and democracy programs in the region, which I 
think should be the front face of U.S. power projection there.
    Ms. Torres Small. And just, lastly, how should we balance 
our need to have a global force posture and then comparing that 
to repositioning forces forward to counter a more direct threat 
from Russia and China?
    Dr. Mahnken.
    Dr. Mahnken. Look, basic fact, we are a global power. We 
are not a regional power. We are not a superregional power. We 
are a global power. Fortunately, we are a global power that has 
allies, and those allied and allied territory is a key 
component of forward deployment. We forward deploy to deter but 
also to reassure our allies, both in Europe and Japan--or in 
Asia, rather, the Western Pacific. And then we also have 
sovereign territory in the Western Pacific as well.
    So it is a balancing act. We need to deter. We need to 
reassure forward, but we also need the flexibility to be able 
to operate globally. And I think that is a continuing balance 
that needs to be struck and it needs to be struck in 
conversation with our allies.
    Ms. Torres Small. And I apologize. I just want to shift 
very quickly. There has been a lot of discussion on the civil-
governmental coordination in China that allows them to leverage 
a lot of investment. We have talked a lot about how we can 
support innovation in that same realm, but are there any 
vulnerabilities that that causes with China when there is such 
coordination between the civil and governmental?
    Mr. Denmark. In China, it is more civil and party than 
civil and governmental, but it is the same point.
    I think there is tremendous vulnerabilities in China's 
system, and we are seeing some of those play out with China's 
response to the coronavirus, in that there are structural 
impediments to open sharing of information, of giving the 
central government bad news, of the central government learning 
what is happening, and then the central government being able 
to actually implement a change of strategy because of the 
distribution of power in China. And I think that applies across 
the board in the economic realm as well.
    Beyond that, there are significant bases of power that 
support inefficient economic models in China, in terms of 
state-owned enterprises which crowd out financing for small 
businesses, for more innovative businesses, while at the same 
time an overreliance on overproduction debt, which is really 
having problems and showing some of the problems now. As 
China's economy slows, a lot of these weaknesses are starting 
to become more and more apparent.
    Ms. Torres Small. Thank you. I yield the remainder of my 
time.
    The Chairman. Mr. Bacon.
    Mr. Bacon. Thank you, Mr. Chairman.
    I want to thank all of you for sharing your expertise and 
experience today.
    My first question is for Dr. Polyakova. I know we have 
elaborate stealth capabilities in the Indo-Pacific region right 
now. Do you think we have enough stealth capability in Europe 
to deter?
    Dr. Polyakova. Stealth capability?
    Mr. Bacon. Stealth like fifth-generation aircraft.
    Dr. Polyakova. I think the deterrence posture of the United 
States is decisively different in Europe than it is in the 
Indo-Pacific. I will let my colleagues address the Indo-Pacific 
region.
    Mr. Bacon. Do we have enough in Europe? I just want to get 
your perspective.
    Dr. Polyakova. My sense of our deterrence capability in 
Europe is that the investments we are making now must focus on 
interoperability and military mobility versus investing new 
capabilities in the region. Because our allies should do more 
and they can do more, and we should continue to prompt and 
support their ability to do so versus continuing to supply our 
own systems and capabilities there.
    Mr. Bacon. So you feel the same way when it comes to armor 
as well? Because we used to have 5,000 tanks assigned there in 
the 1980s. Now we have a rotating brigade. Do you think this is 
adequate?
    Dr. Polyakova. I think that is a point of debate that we 
need to engage in in a real way. I think the recent increase in 
rotational forces in Poland has been a positive development. I 
think the constant balance we have to strike is to what extent 
we want to take the escalation burden on ourselves versus 
placing it on Russia. I think right now, the national security 
strategy in the NDS is strategically trying to shift the burden 
to Russia versus to our allies and ourselves.
    Mr. Bacon. Thank you. Mr. Denmark, I appreciate your 
comments on the intermediate-range missiles that have a 
conventional missile capability to counter China. I think you 
are absolutely right. We have a disadvantage there, and they 
can hold us at risk at our bases.
    Switching topics, are we doing enough to engage Taiwan to 
help deter what China is doing? Can we do more? Because they 
are a freedom-loving people, and they want to do more with us, 
and they want to remain independent.
    Mr. Denmark. I am very glad that you raised Taiwan. I agree 
that Taiwan is a very important if unofficial partner of the 
United States. I think they show that some values, in terms of 
an embrace of political and economic liberalism, are not based 
on culture and history, but, rather, they are more universal 
than folks in Beijing would like to argue.
    I do think that we could be doing more with Taiwan, but 
likely not in the security military area. I think the security 
and military cooperation with Taiwan has been very good. There 
has been continued arms sales across administrations for a long 
time, and I think those are very helpful in terms of preserving 
deterrence. I think that cooperation in the military sphere 
could adjust a bit, emphasizing asymmetry.
    But in terms of where we need to build our relationship 
with Taiwan, I would focus much more on the economic realm, 
that Taiwan is very vulnerable to China, in part because of its 
economic reliance on the mainland, and working with Taiwan in 
terms of enhancing trade both bilaterally with Taiwan but 
helping Taiwan enhance its trade with the rest of the Indo-
Pacific, not just through the mainland, would very much help 
them sustain their own system and reduce their vulnerability to 
the mainland.
    Mr. Bacon. I know the Taiwanese leadership would love to 
have a trade deal with America. In fact, their senior 
leadership told me they could do it in one day, and I think we 
ought to try to get that done. I think that would be important.
    Dr. Mahnken, I want to ask you about two areas if I have 
time to do it. Three years ago, I thought we had a very big 
deficiency in electronic warfare, and I think we have come a 
long way. How do you think that we have prioritized electronic 
warfare when you look at the capabilities of China and Russia?
    Dr. Mahnken. I think we are making strides there, but we 
are playing from behind, right? Russia and China have had very 
dedicated approaches to electronic warfare. In the case of the 
Russians, a lot of battlefield experience. And so, you know, we 
need to focus on the areas where we can make real gains. And I 
think we have made some strides, but, again, we are playing 
from behind on that one.
    Mr. Bacon. Maybe a question on ISR. I believe that we need 
the fifth-gen ISR capability in phase IV operation when you are 
in a mobile fight. But phase zero and phase I, where we are at 
today, you need your traditional ISR that can really do the 
job. So I think we need a blend.
    Dr. Mahnken. Yes.
    Mr. Bacon. Do you think we are in the right spot, heading 
the right direction with our ISR blend of fifth-gen, current 
capabilities in space?
    Dr. Mahnken. So I think your point is spot on. And in my 
written testimony, I talk a little bit about that, and we 
actually have a report that is going to be forthcoming on the 
topic of ISR in the competition phase. And there I think, yeah, 
whether it is platforms like Global Hawk or like Reaper, manned 
platforms, I think there is a strong case to be made for 
knitting those together to provide 24/7 situational awareness 
in areas that we are concerned about, first and foremost 
because that is a deterrent. When others know that we are 
watching, they tend to be on better behavior.
    Mr. Bacon. Thank you. Mr. Speaker, I yield.
    The Chairman. Mr. Golden.
    Mr. Golden. Thank you, Mr. Chair. So I have been sitting 
here listening, and I have enjoyed it very much, thank you all 
for your testimony. I found it very informative. I think I am 
last, so I thought I had an opportunity to kind of help us 
clean this thing up. If you could do me a favor and imagine 
that you were back home with me in Maine, in, like, a townhall 
setting with some farmers, lobstermen, people working at a 
paper mill, where they are also selling some products that 
paper's being made in China in factories over there, or small 
business owner, children, whoever you can imagine. I think 
sometimes here we take it for granted that the American people 
understand why it is that we ask them to assume these great 
investments in our military and also in a 2+3 strategy.
    And Mr. Mahnken, you stated that we are a global power. So 
why does that matter to the everyday American citizen? And when 
we are talking about China, and specifically, what is the 
scenario that the American people should be most worried about 
in the future? Is it a Pearl Harbor-like attack? A west coast 
missile strike on the west coast? Is it a China who continues 
to pick off our allies, shuts us out of that economic market of 
the future that you are talking about? What specifically? Why 
does this hearing matter to my constituents?
    Dr. Mahnken. So Congressman, when I am back home in San 
Diego, it is a little bit easier to make that case about the 
Pacific than perhaps----
    Mr. Golden. Make it for anyone, we are one country.
    Dr. Mahnken. Yeah, absolutely. But I think Americans, you 
know--small-town America take a lot of things for granted. They 
take--and they have been allowed to, because it is invisible, 
right? They take rapid reliable access to the global commons 
and all that comes with it for granted. That spurred 
globalization, that spurred economic prosperity from small town 
America across the globe to include China. All of that has 
rested, invisibly often, on American power. And it was actually 
I think Joe Nye said that security is like oxygen, you only 
notice it when it is running out.
    So, in part, the situation you face, we face is a good one, 
or is a byproduct of a good situation, what was a good 
situation. I agree with you, though, that we have to make the 
case going forward, that the things that we care about, whether 
it is material goods or our values, are worth defending. And 
either we defend them now, far from our shores, through our 
allies, through our relationships, through deterrence, or we 
are going to have to either see them go away, or have to fight 
them in another way.
    Mr. Golden. From an economic standpoint, it is whether or 
not we continue to be successful and be able to tap into these 
markets, and continue to see our economy grow, is what you are 
saying. But I thought you just made a good point. I have heard 
some very smart generals talk about when it comes to combat, we 
would rather play an away game than a home game. I think that 
is absolutely correct. We have been very fortunate.
    In thinking about the 2+3 strategy that we have all talked 
about, a frank question for any one of you, do you think we are 
being realistic with the size of the military that we have and 
the capabilities that we have demonstrated? We look at the 
height of the surge in Iraq, the United States Marine Corps had 
to become more of a land-based Army type military supplement to 
the Army. It was very hard for us to maintain those wars in the 
Middle East.
    With what we have today, is it really reasonable to think 
that we are ready for a conflict in the Pacific while also 
being able to deter Russian aggression and work with our allies 
in Europe, plus maintain some kind of operational capability 
from North Africa to Pakistan in regards--can we do that? Do 
you all have a degree of confidence that we can do that today?
    Dr. Mahnken. Just very briefly, the type of war that you 
are talking about, a great power war, would be much more 
consequential than Iraq or Afghanistan. And it would require 
much greater exertion, but the stakes would be much higher. So 
do I think we, as a Nation, are capable of generating that? 
Yes, absolutely.
    Mr. Golden. With an All-Volunteer Force and at our current 
budget levels, we are on track to be able to meet----
    Dr. Mahnken. Well, not current budget levels, right? Again, 
if we are talking about a big war, historically, we haven't 
fought big wars with peacetime defense budgets.
    Mr. Golden. I appreciate that. It is a weighty issue and a 
good hearing overall. But like I said, I think the American 
people have to understand why it is that Congress, and the 
Pentagon, and the military, the State Department, and others 
are talking about these things. There is a lot of skepticism 
out there. I am sure you hear about it and read about it. So 
thanks for a good hearing.
    The Chairman. Thank you. Mr. Thornberry.
    Mr. Thornberry. Thank you, Mr. Chairman. And thank you all 
for being here. I read all your statements, I've listened to 
nearly all the questions and I've found very little with which 
I disagree. Let me ask, though, a couple of follow-up things.
    Mr. Denmark, you teased us with nuclear deterrence is 
different in Asia or China than it is for Russia. And I would 
like to hear a little bit about how, considering that it is not 
just the United States and China, there is also North Korea in 
that mix, which is also a concern of China. So, can you give us 
2 minutes of how it is different and how we ought to think 
about it?
    Mr. Denmark. Sure. So the way China approaches nuclear 
deterrence is very different from how Russia approaches it. 
China not only faces a nuclear deterrent challenge with the 
United States, but, also, they have to look at North Korea, 
they have to look at Russia, they have to look at India, and 
that is a wicked challenge for them.
    So they have adopted a no-first-use policy which they 
pledged not to be the first to use nuclear weapons. But at the 
same time, they have also adopted a strategy of having a 
minimally acceptable deterrent, in that they are not seeking to 
wipe out an adversary in a nuclear conflict, but rather to be 
able to hold sufficient threat of a retaliation in place, so 
that no country would attack them with nuclear weapons.
    So their number of nuclear weapons that they have is much 
smaller than what the United States or Russia have. And so, 
they approach these things completely differently. There has 
been--unlike with the relationship with Russia, nuclear 
dynamics have not--have been very far from the forefront of our 
relationship with China. There have been very few contacts 
between our two militaries on issues of nuclear weapons and 
strategic stability.
    Most of those discussions happen between scholars. And so, 
China's approach to these things is very different, so our 
approach towards deterrence and strategic stability towards 
China has to be quite different.
    I will make one last point. The Chinese have been enhancing 
their nuclear capabilities in recent years, both quantitatively 
and qualitatively. And that is coming out of concern primarily 
about American conventional capabilities, specifically 
ballistic missile defense and other penetrating strike 
capabilities that they fear could undermine their ability to 
conduct a retaliatory strike.
    And so, as they are expanding it, they are not racing to 
parity, they are not going to try to meet where the Americans 
or the Russians are. When we try to reach out to them about 
signing on to successor to New START [Strategic Arms Reduction 
Treaty] they say, You are not even close to us, give us a call 
when you are within the same neighborhood as where we are, but 
they don't really see that as their problem.
    With the potential introduction of American INF missiles 
into the Indo-Pacific, they may actually start to be seeing 
this as a problem for them. And my hope is that we can start 
having these conversations that we have been trying to have.
    Mr. Thornberry. Okay. That is helpful. Thank you.
    Dr. Mahnken, number one, I appreciate your service on the 
National Strategy Commission. In that report and in your 
testimony today, is a lot of talk about innovative new 
operational concepts. My question that I keep asking is what 
can we in Congress do to foster new operational concepts, not 
only with regard to China, but other challenges around the 
world?
    Dr. Mahnken. I think one of the things that Congress can do 
is to ask the Defense Department to show its homework. Ask the 
Defense Department to show how the budget request is taught, 
and that priorities are tied to operational concepts. How--you 
know, we need X capability and don't need Y capability. How is 
that represented in new operational concepts, not just at the 
service level, because I think the services are doing some good 
work. But what is lacking is a joint operational concept, or 
set of joint operational concepts. National Defense Strategy, 
the classified National Defense Strategy does a nice job of 
laying out a set of operational challenges that should be 
driving innovation and should be driving the budget. I think it 
is incumbent upon Congress to ask the Defense Department, have 
them show exactly how those challenges, operational concept 
development, is shaping the budget and shaping the program.
    Mr. Thornberry. I think that is a fair point. The only 
thing I would say, and it kind of gets back to a little bit of 
what General Bergman was talking about--it is also a 
challenge--I mean, you are talking about matching the 
operational concepts with the budget, but you have to have the 
operational concepts to begin with. And so, fostering that sort 
of intellectual effort, like we have done in the cold war, and 
that has atrophied to some extent, seems to me to be one of our 
challenges. You make the point, I think in your testimony, we 
do all these experimentations and innovation and it just kind 
of dies, nothing really comes of it. To me, that is one of 
biggest challenges we face, it is, okay, come up with these 
ideas but then make something happen from them. And that is 
particularly true with China, but it is also true with other 
things.
    Again, thank you all. I yield back to Chairman Langevin.
    Mr. Langevin [presiding]. Thank you, Mr. Thornberry. I want 
to thank our witnesses for being here today and taking the time 
out of your schedules to come and discuss this extremely 
important topic.
    Dr. Polyakova, I will start with you, if I could. In your 
testimony, you stated Moscow will continue to seek out, 
develop, and co-opt low-cost but high-impact tools of 
asymmetric warfare--digital technologies, information warfare 
and cyber operations--to challenge the U.S. and our allies. So 
my question is, Russia's hybrid operations in the gray zone are 
well-documented; are the U.S. and our allies getting better at 
detecting them and countering them?
    Dr. Polyakova. Again, I can't speak to any classified 
sources of information. What we know from open source is in the 
malign influence space in the information environment, we are 
getting much better at understanding how the Russians carry out 
disinformation operations. And the social media companies are 
increasingly working more closely with public agencies to 
coordinate on information sharing but we need to do a lot more 
of that. I was very happy to see in the NDAA a specific call to 
establish a coordination center that would allow for more 
information sharing between the private sector and the United 
States Government. I think these kinds of efforts are 
absolutely critical.
    I think in the cyberspace is where we face some of the 
greatest challenges and threats. The Russians, through, again, 
proxy groups, but also through their military intelligence 
units and services, have aggressively stepped up their cyber 
capabilities on the offensive side. And we have just recently 
basically opened the door for CYBERCOM [U.S. Cyber Command] to 
explore offensive capabilities. I think we need much more of 
that. I think we need to think of an offensive posture and a 
defensive posture when it comes to cyber, especially because 
this is where I see the greatest threat in whatever kind of 
conflict we face in the future, whether it be a great power war 
that we are talking about, or another conflict of the nature we 
have seen in the past with various kinds of rogue states or 
terrorist organizations. But cyber will play an absolutely 
changing role, a dramatically changing role in the nature and 
outcome of those conflicts.
    Mr. Langevin. Beyond that, as a follow-up, what would you 
say we learned from this ongoing competition and what can we be 
doing better, any additional thoughts?
    Dr. Polyakova. I think we have clearly learned that we 
cannot think of warfare in binary terms. I think there has been 
a tendency to think in terms of conventional military power 
projection and then nonconventional threats is something that 
the Department of Defense doesn't do, doesn't engage in. And if 
anything, that is the work of public diplomacy in the State 
Department. And I think what we see now is that our adversaries 
do not think of warfare in those binary terms; they think of 
warfare as a spectrum. And I think the reality that we face is 
that we need to match our responses also from that spectrum 
perspective as well. And I do see huge improvements, again, in 
the 2020 NDAA, I think, is a critical law that has really 
stepped up our capabilities in nonconventional space. But I 
think that is our weak underbelly, that is the soft underbelly 
of our defensive and offensive capabilities.
    Mr. Langevin. Dr. Mahnken, I see you nodding. Is there 
anything you wanted to add?
    Dr. Mahnken. I couldn't agree more. I think we, as 
Americans, as Westerners, we view the world in binary terms: 
either we are at peace or we are at war. Or if we are planning 
for military operations--although I know the long-lamented six-
phase campaign construct is supposed to have gone by the 
wayside--we think in terms of we are in phase zero, all the way 
up to, you know, decisive operations, or post-war operations. 
But for us, it is kind of like looking at the part of the 
iceberg that is above the water, whereas whether we are talking 
about the Russians, we are talking about the Chinese, they 
think much more in terms of a spectrum of operations. So what 
concerns me is, yeah, we could lose before we realize or know 
that we are at war, lose without ever having got to that major 
conflict phase.
    So that, I think that--we do need to realign our thinking. 
And DOD, as part of its title 10 responsibilities, also 
probably needs to realign the way it thinks about things.
    Mr. Langevin. I think that happened to us in 2016 that we 
were unprepared and realized only after the fact when our 
elections were under attack by Russian influence operations.
    Let me ask you this: Our greatest strength in the INDOPACOM 
is our allies, our partnership is a force multiplier that 
enables a persistent presence in the area. China, as we have 
discussed today, is attempting to rival our influence through 
soft and hard power.
    Dr. Mahnken, you address the necessity to update our force 
posture in the area in order to sustain deterrence and enhance 
regional resistance to China. In addition to the current force 
posture, where should the DOD and the Department of State 
prioritize?
    Dr. Mahnken. Well, in addition to our current force 
posture, one area I would call out is Australia. So as the 
challenge in the Western Pacific increasingly is a challenge in 
the Indo-Pacific region, I think Australia's strategic 
geography becomes all the more important. And so thinking about 
things that we can do with our Australian allies in terms of 
joint facilities; the Marines have led the way there with the 
rotational presence in Darwin, but I think there is room for 
more cooperation there in terms of air forces, in terms of 
naval forces, in terms of even Australian test ranges. So areas 
like that. I think we should also be exploring opportunities, 
possibilities with Vietnam, with others. That is--those are the 
ideas that immediately come to mind.
    Mr. Langevin. Anyone else want to comment?
    Mr. Denmark. Very briefly, just building off of what Dr. 
Mahnken said. I think there is opportunities and a necessity to 
diversify our posture within Japan, from the relatively small 
number of large bases to a more distributed approach, new 
airfields, new prepositioning of pieces. I would also take a 
look at Pacific islands as a potential area for cooperation for 
building facilities, for building those sort of prepositioning 
of forces, of logistics, in addition to other places in 
Southeast Asia that may, at some point, become more amenable to 
cooperation in this area.
    Mr. Langevin. Very good. I want to thank you all for your 
testimony here today, it has been very helpful and insightful. 
And obviously, a lot to consider and we have a lot of work to 
do to follow up. So I appreciate you being here today. Mac, did 
you have anything else?
    With that, the hearing stands adjourned. Thank you.
    [Whereupon, at 12:17 p.m., the committee was adjourned.]

    
=======================================================================

                            A P P E N D I X

                           February 11, 2020

      
=======================================================================


              PREPARED STATEMENTS SUBMITTED FOR THE RECORD

                           February 11, 2020

=======================================================================

      

      
    [GRAPHICS NOT AVAILABLE IN TIFF FORMAT] 
      
=======================================================================


              WITNESS RESPONSES TO QUESTIONS ASKED DURING

                              THE HEARING

                           February 11, 2020

=======================================================================

      

             RESPONSE TO QUESTION SUBMITTED BY MR. WITTMAN

    Dr. Polyakova. The defense budget makes the important shift in USG 
thinking towards anticipating and better preparing for the future of 
war, both in the kinetic and non-kinetic domains. In particular, it 
emphasizes and allots additional resources to countering information-
operations by state actors, which will key as Russia and China 
increasingly see information-operations as a core part of their warfare 
arsenal.   [See page 19.]

     
=======================================================================


              QUESTIONS SUBMITTED BY MEMBERS POST HEARING

                           February 11, 2020

=======================================================================

      

                     QUESTIONS SUBMITTED BY MR. KIM

    Mr. Kim. Dr. Polyakova, do you believe the United States is doing 
Russia a favor by elevating them in the same group as China when 
talking/discussing long-term major state competitions? If so, how would 
you recommend we deter from this current strategy?
    Dr. Polyakova. Russia is a competitive adversary to the United 
States--the National Security Strategy identified the threat correctly. 
However, Russia presents a very different challenge than China: unlike 
China, Russia cannot compete economically, politically, or militarily 
with the United States and our Allies. Rather, Russia seeks 
opportunities where it can undermine the United States without engaging 
in direct competition. Our strategy should reflect the dual challenge 
that Russia and China represent while differentiating our approach to 
deterring each.
                                 ______
                                 
                  QUESTIONS SUBMITTED BY MR. BRINDISI
    Mr. Brindisi. I am particularly concerned that DOD may not be 
keeping pace with China in terms of our investments in information 
technologies--specifically Quantum Information Sciences, which has the 
potential to transform. China has aggressively invested and increased 
the pace of its Quantum research in recent years and is seeking to 
become the global leader in Quantum and Artificial Intelligence. I am 
worried that we are slightly slow to fully recognize the massive 
importance of Quantum technologies and invest accordingly.
    1) Do you feel that we are investing adequate resources fast enough 
in order to keep pace with China regarding Quantum Information Science 
research?
    2) How could we better leverage our DOD innovation base and lab 
system to ensure we don't fall behind in these critical areas?
    3) The Air Force Research Laboratory has begun focusing on 
leveraging industry expertise to accelerate public-private research 
collaboration between DOD and industry through a newly established 
Quantum Information Science Innovation Center, which has been 
promising. Are there ways to engage industry and academia on these 
critical research areas that DOD should be doing, but isn't currently?
    Dr. Mahnken. 1) Do you feel that we are investing adequate 
resources fast enough in order to keep pace with China regarding 
Quantum Information Science research? I believe that it would be 
advisable to invest additional resources in Quantum Information Science 
research, both to exploit the opportunities that quantum holds for the 
military, but also to safeguard against the potential of an adversary's 
breakthrough in the field.
    2) How could we better leverage our DOD innovation base and lab 
system to ensure we don't fall behind in these critical areas? I 
believe it is critical for the DOD innovation base and national 
laboratory system to be able to have access to top-tier scientists and 
engineers in this field. My work on military innovation shows that 
individual innovators and their professional networks play a crucial 
role in promoting innovation. This means either recruiting or retaining 
them as civil servants, or maintaining long-term support for their 
work.
    3) The Air Force Research Laboratory has begun focusing on 
leveraging industry expertise to accelerate public-private research 
collaboration between DOD and industry through a newly established 
Quantum Information Science Innovation Center, which has been 
promising. Are there ways to engage industry and academia on these 
critical research areas that DOD should be doing, but isn't currently? 
I believe that DOD engagement with industry and academia is a good 
step. Over time, however, it will be important to judge whether there 
are aspects of Quantum Information Science that are not receiving the 
attention that they deserve from industry and academia, and where a 
dedicated government effort is thus required.

                                  [all]
</pre></body></html>
